  Treasury Inspector General for Tax Administration




Semiannual Report
to Congress

April 1, 2006 through September 30, 2006
TIGTA Semiannual Report to Congress




            We are more heavily taxed by our
            idleness, pride and folly than we are
            taxed by government.


                              ~ Benjamin Franklin




ii
                                                                TIGTA Semiannual Report to Congress



                                                                     Table of Contents



Inspector General’s Message to Congress ...................................................................... 1
TIGTA’s Profile ..............................................................................................................................     3
     Statutory Mandate ..................................................................................................................          3
     Organizational Structure ........................................................................................................             4
     Authorities ..............................................................................................................................    4

Promote the Economy, Efficiency, and Effectiveness of Tax Administration ....... 5
    Security of the IRS ................................................................................................................. 6
    Hurricane Relief ..................................................................................................................... 9
    Tax Gap ................................................................................................................................. 13
    Systems Modernization of the IRS ........................................................................................ 16
    Providing Quality Taxpayer Service Operations ................................................................... 20
    Tax Exempt Organizations .................................................................................................... 24

Protect the Integrity of Tax Administration ....................................................................... 27
     Performance Model ................................................................................................................ 27
     Protecting Sensitive Taxpayer Information ........................................................................... 29
     Threat/Assault Investigations ................................................................................................. 32
     Fraud Investigations ............................................................................................................... 34
     Private Collection Agencies ................................................................................................... 35
     Procurement Fraud Investigations ......................................................................................... 36
     High-Tech Crime Fighting ..................................................................................................... 37
     Combating “Phishing” Schemes ............................................................................................ 39
     Criminal Intelligence Program ............................................................................................... 40
     Cease and Desist Letters ........................................................................................................ 41
     Proactive Investigative Initiatives .......................................................................................... 42
     Outreach ................................................................................................................................. 43

Awards and Special Achievements ................................................................................... 45
Congressional Testimony ........................................................................................................ 47




                                                                                                                                                  iii
TIGTA Semiannual Report to Congress




Audit Statistical Reports ........................................................................................................... 49
     Reports with Questioned Costs .............................................................................................. 49
     Reports with Recommendations That Funds Be Put to Better Use ....................................... 50
     Reports with Additional Quantifiable Impact on Tax Administration .................................. 51

Investigations Statistical Reports .......................................................................................... 53
     Complaints/Allegations Received by TIGTA ........................................................................ 53
     Status of Complaints/Allegations Received by TIGTA ......................................................... 53
     Investigations Opened and Closed ......................................................................................... 53
     Financial Accomplishments ................................................................................................... 53
     Status of Closed Criminal Investigations ............................................................................... 54
     Criminal Dispositions ............................................................................................................ 54
     Administrative Dispositions on Closed TIGTA Investigations ............................................. 54

Appendices
Appendix I - Statistical Reports – Other ............................................................................ 55
    Audit Reports with Significant Unimplemented Corrective Actions .................................... 55
    Other Statistical Reports ........................................................................................................ 63

Appendix II - Audit Products ................................................................................................. 65
    April 1, 2006 - September 30, 2006 ....................................................................................... 65

Appendix III - TIGTA’s Statutory Reporting Requirements ........................................... 71

Appendix IV - Section 1203 Standards ............................................................................. 77

App. V - Data Tables Provided by the IRS (Employee Misconduct Reports) ....... 79
    IRS Memorandum .................................................................................................................. 79
    Report of Employee Misconduct for the Period 04/01/06 - 09/30/06
    Summary by Disposition Groups ........................................................................................... 80
    Report of Employee Misconduct for the Period 04/01/06 - 09/30/06
    National Summary ................................................................................................................. 81
    Summary of Substantiated §1203 Allegations Recorded in ALERTS
    for the Period 04/01/06 - 09/30/06 ......................................................................................... 82




iv
                                         TIGTA Semiannual Report to Congress




                                Inspector General’s
                                        Message to
                                          Congress

                   O        ur nation’s government depends on an effective, efficient, and equitable
                            tax system. Especially during times of such great demand on Federal
                            resources, Americans must have faith that their tax dollars are fairly
                   assessed, and that the tax laws are enforced effectively and fairly. The Treasury
                   Inspector General for Tax Administration (TIGTA) is charged with ensuring
                   that these responsibilities are met, and I remain dedicated to upholding this
                   important mission.
                    I am proud of our accomplishments and pleased to present TIGTA’s Semiannual
Report to Congress. Once again, TIGTA has excelled in its effort to ensure the integrity and
fairness of the Federal tax system. This report highlights our most notable audit and investigative
work conducted from April 1, 2006, through September 30, 2006, and summarizes the statistical
results of our work. Over the last six months, TIGTA has completed 118 audits that identified more
than $258 million in total cost savings and $1.4 billion in increased or protected revenue. In
addition, TIGTA’s Office of Chief Counsel has reviewed and made recommendations on the impact
of 177 proposed or existing regulations and laws affecting tax administration.
The Internal Revenue Service (IRS) continues to face many challenges. I have identified my
priorities for TIGTA based on those challenges. They include: overseeing IRS efforts to modernize
technology; enhancing TIGTA’s ability to protect tax administration from corruption; and
monitoring IRS initiatives to improve tax compliance, which now includes the use of private debt
collection agencies.
As the IRS modernizes its systems through the Business Systems Modernization (BSM) program, it
is essential that contractor performance and accountability be effectively managed. The BSM
program is a complex effort to modernize the IRS’ technology and related business processes. This
program is in its eighth year and has cost approximately $2.1 billion. However, recent contractor
failures to implement a redesigned Electronic Fraud Detection System (EFDS) demonstrated the
significant consequences of inadequate supervision of IRS contractors. TIGTA’s review
determined that this failure resulted in the inefficient use of more than $20 million in contractor
payments, and left the IRS unable to identify potentially millions of dollars in fraudulent refunds
during the 2006 filing season.
Protecting tax administration from corruption remains one of TIGTA’s highest priorities. Over the
last six months, TIGTA’s Office of Investigations opened 1,669 cases and closed 1,694. Millions of
taxpayers entrust the IRS with sensitive financial and personal data stored and processed by IRS
computer systems. Recent reports of identity theft in both the private and public sectors have
heightened awareness of the need to protect this data. An integral part of TIGTA’s Office of
Investigations’ employee integrity program involves the identification and investigation of
unauthorized access (UNAX) to confidential taxpayer records. Highlights of several of these



                                                                                                  1
TIGTA Semiannual Report to Congress



    investigations included in this report demonstrate that UNAX violations continue to pose a serious
    threat to the security of taxpayer data.
    TIGTA has expanded its oversight capabilities to enhance its performance. Through its outreach
    initiatives, TIGTA continues to educate a vast number of IRS employees and tax professionals. In
    addition, TIGTA has proactively addressed issues facing taxpayers. For example, this year, TIGTA
    successfully responded when the IRS was targeted by a variety of Internet “phishing” scams
    designed to emulate IRS operations. Through TIGTA’s efforts, many of these Internet sites were
    shut down, minimizing victims’ losses and protecting against the misuse of the IRS symbol.
    TIGTA’s active presence in the media alerted the public to these schemes, explaining what actions
    people should take if they are targeted.
    Improving tax compliance and closing the tax gap, which the IRS estimates at $345 billion, is
    critical to collecting sufficient revenue to finance the many demands being placed on the Federal
    Government. The IRS is striving to find an appropriate balance between enhanced taxpayer
    assistance and effective enforcement.
    The IRS is adapting its enforcement activities to better target corporations and high-income
    individuals who fail to meet their tax obligation. However, TIGTA continues to identify the need
    for improvement in taxpayer services provided through toll-free, face-to-face, and electronic
    methods. In addition, TIGTA found that despite its recent effort to update the tax gap estimate, the
    IRS still does not have sufficient information to completely and accurately assess the overall gap
    and voluntary compliance rate.
    During this reporting period, the IRS began implementing its private debt collection initiative,
    designed to contract out the collection of delinquent tax debt to private collection agencies. TIGTA
    has a multi-year strategy for overseeing this important and highly visible initiative. TIGTA has
    played a critical role in the initial implementation of the program by providing oversight, input, and
    support to the IRS. TIGTA is working with the IRS on concerns regarding background
    investigations of contractor employees; physical security; selection criteria and distribution of cases
    to contractors; contract employee training; and the processes and requirements for reporting
    improprieties to TIGTA. This is a high-risk area for the IRS, and TIGTA’s continued oversight will
    help ensure that taxpayers’ rights are protected.
    To enhance TIGTA’s ability to respond quickly to changing events, TIGTA established an
    Inspections and Evaluation (I&E) unit during this reporting period. This unit was tested during a
    pilot program earlier this year. Throughout the project, the I&E group provided TIGTA with the
    flexibility to perform work in areas that span the broad spectrum of tax administration. The I&E
    group provides regular status reports on the IRS’ private debt collection initiative and, during this
    reporting period, produced an analysis related to the recent flooding of IRS headquarters.
    The IRS will continue to face formidable challenges as it strives to administer an efficient, effective,
    and equitable tax system. TIGTA is committed to working with the IRS, Congress and other
    stakeholders to ensure that these challenges are met.

                                                  Sincerely,


                                              J. Russell George
                                              Inspector General



2
                                           TIGTA Semiannual Report to Congress




                                                    TIGTA's Profile




T       he Treasury Inspector General for
        Tax Administration (TIGTA)
        provides independent oversight of
Treasury Department matters involving
                                                    TIGTA conducts audits and investigations
                                                    designed to:
                                                    • promote the economy, efficiency, and
                                                        effectiveness of tax administration; and
IRS activities, the IRS Oversight Board,            • protect the integrity of tax
the National Taxpayer Advocate, and the                 administration.
IRS Office of Chief Counsel. Although
TIGTA is placed organizationally in the
Treasury Departmental Offices and reports                  TIGTA’s Statutory Mandate
to the Secretary of the Treasury and to
Congress, TIGTA functions independently         •     Protect against external attempts to
from the Departmental Offices and all other           corrupt or threaten IRS employees.
offices and bureaus within the Department.      •     Provide policy direction and conduct,
                                                      supervise, and coordinate audits and
TIGTA’s work is devoted to all aspects of             investigations related to IRS programs
activity related to the Federal tax system as         and operations.
administered by the IRS. By identifying         •     Review existing and proposed
and addressing the IRS’ management                    legislation and regulations related to
challenges, implementing the President’s              IRS programs and operations and
Management Agenda and the priorities of               make recommendations concerning
the Department of the Treasury, and                   the impact of such legislation or
overseeing the IRS as it strives to achieve           regulations.
its strategic goals, TIGTA protects the         •     Promote economy and efficiency in
public’s confidence in the tax system.                the administration of tax laws.
TIGTA’s primary functional offices are the      •     Prevent and detect fraud and abuse
Office of Audit (OA) and the Office of                in IRS programs and operations.
Investigations (OI). TIGTA’s Offices of         •     Inform the Secretary of the Treasury
Chief Counsel, Information Technology,                and Congress of problems and
and Management Services support OA and                deficiencies identified and of the
OI efforts. (See organizational chart on              progress made in resolving them.
page 4.)




                                                                                                   3
TIGTA Semiannual Report to Congress


           .

TIGTA’s Organizational Structure


                                              Inspector General




                           Chief Counsel




                    Deputy Inspector General                   Deputy Inspector General
                            for Audit                             for Investigations



                            Assistant                                    Assistant
                        Inspector General                           Inspector General
                    for Management Services                    for Information Technology




    Authorities

    TIGTA has all of the authorities granted                 potential criminal offenses under the
    under the Inspector General Act of 1978,                 internal revenue laws. In addition, the
    as amended.1 TIGTA has access to tax                     IRS Restructuring and Reform Act of
    information in the performance of its tax-               1998 (RRA 98)2 amended the Inspector
    administration responsibilities. TIGTA                   General Act of 1978 to give TIGTA
    also has the obligation to report potential              statutory authority to carry firearms,
    criminal violations directly to the                      execute and serve search and arrest
    Department of Justice. TIGTA and the                     warrants, serve subpoenas and
    Commissioner of Internal Revenue have                    summonses, and make arrests as set forth
    established policies and procedures                      in Section 7608(b)(2) of the Internal
    delineating responsibilities to investigate              Revenue Code (I.R.C.).



                                                         2
                                                             Public Law No. 105-206, 112 Stat. 685 (codified
                                                             as amended in scattered sections of 2 U.S.C., 5
                                                             U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23
                                                             U.S.C., 26 I.R..C., 31 U.S.C., 38 U.S.C., and
    1
        5 U.S.C.A. app. 3 (West Supp. 2005)                  49 U.S.C.).




4
                                      TIGTA Semiannual Report to Congress



                                     Promote the
                              Economy, Efficiency
                                and Effectiveness
                            of Tax Administration



T      IGTA’s Office of Audit (OA)
       strives to promote the economy,
       efficiency, and effectiveness of tax
administration. TIGTA provides
recommendations to improve IRS systems
                                                  For this reporting period, several audits
                                                  focused on the key areas of security,
                                                  hurricane relief, the tax gap, business
                                                  systems modernization, taxpayer service,
                                                  and tax-exempt organizations. Many of
and operations, while ensuring fair and           TIGTA’s on-going audits continue to
equitable treatment of taxpayers.                 focus on these areas and their findings will
TIGTA’s comprehensive, independent                be included in future reports.
performance and financial audits of IRS
programs and operations focus on
mandated reviews and high-risk
challenges facing the IRS.                                 Audit Emphasis Areas
                                                      •   Security of the IRS
The IRS’ implementation of audit                      •   Hurricane Relief
recommendations results in cost savings
and increased or protected revenue;                   •   Tax Gap
reduction of taxpayer burden; and                     •   Systems Modernization of
protection of taxpayer rights and                         the IRS
entitlements, taxpayer privacy and                    •   Providing Quality Taxpayer
security, and IRS resources.                              Service Operations
                                                      •   Tax Exempt Organizations
Each year, TIGTA identifies and addresses
the major management challenges facing
the IRS. TIGTA places audit emphasis on
statutory coverage required by RRA 98, as         The following summaries highlight
well as areas of concern to Congress, the         significant audits that TIGTA completed
Secretary of the Treasury, the                    in each of the above areas of emphasis
Commissioner of Internal Revenue, and             during this six-month reporting period.
other key stakeholders.

(Click on report references on following pages to go to Web links for audit reports.)




                                                                                            5
TIGTA Semiannual Report to Congress



    Security of the Internal                       Federal Information Security
                                                   Management Act (FISMA) Compliance
    Revenue Service
                                                   Each year, Inspectors General are required
    Millions of taxpayers entrust the IRS with     to evaluate agencies’ compliance with the
    sensitive financial and personal data stored   Federal Information Security Management
    on and processed by IRS computer               Act (FISMA).4 TIGTA’s annual
    systems. Recent reports of identity theft in   assessment showed that the IRS had made
    both the private and public sectors have       progress in complying with FISMA
    heightened awareness of the need to            requirements since their enactment in
    protect data. The risks that sensitive data    2002. The IRS has assessed the risks of its
    or computer systems could be                   systems and significantly improved its
    compromised and computer operations            process to certify and accredit the security
    could be disrupted continue to increase.       of those systems. TIGTA, however, has
    These risks stem from internal factors such    reported that IRS business units have not
    as increased connectivity of computer          carried out their responsibilities for testing
    systems and increased use of portable          systems on an annual basis. TIGTA also
    laptop computers, and external factors         reported that the IRS needs to improve its
    such as volatile environmental threats         tracking of actions to correct security
    related to increased terrorist and hacker      vulnerabilities, incident reporting, and
    activity.                                      training for employees with key security
                                                   responsibilities.
    The IRS is making steady progress toward       Report Reference No. 2006-20-179
    improving computer security; however,
    much work needs to be done. The IRS has        Electronic Fraud Detection System
    identified the security of its computer        (EFDS)
    systems as a high priority in its
    2005-2009 Strategic Plan and has               In 2006, the IRS certified and accredited a
    designated computer security as a material     major change to its Electronic Fraud
    weakness under the Federal Managers’           Detection System (EFDS). The EFDS
    Financial Integrity Act of 1982.3 TIGTA’s      contains the IRS’ second largest repository
    audits continue to show that managers          of taxpayer information, making it
    throughout the IRS view security as the        paramount that the information is
    responsibility of IRS executives, but not      protected. Tests of the older EFDS to
    that of all employees. While IRS               support the certification were inadequate
    executives are responsible for establishing    because the implementation date for the
    policies and providing oversight, they         new system was imminent. In addition,
    must rely on all employees to provide          prior certification testing for the EFDS had
    security for the IRS’ infrastructure and       been inadequate. As a result, system
    business applications. Many of the             owners formally accepted the risks of the
    technical vulnerabilities identified can be    system with only limited assurance that
    attributed to the lack of training provided    security controls protected taxpayer
    for employees with key security
    responsibilities.                              4
                                                    The FISMA is part of the E-Government Act of
                                                   2002, codified at Pub. L. No. 107-347, Title III, 116
    3
        31 U.S.C. §§ 1105, 1113, 3512 (2000).      Stat. 2946.




6
                                                  TIGTA Semiannual Report to Congress


information from being inappropriately                   and completeness of the privacy impact
accessed and misused. The new version of                 assessments that were completed.
the EFDS was scheduled to be operational
in January 2006, but functional problems                 TIGTA recommended that the IRS
prevented it from being implemented. As                  establish a central repository of all privacy
a result, it was too late to restore the prior           impact assessments in a searchable,
version of the system, so the IRS went                   electronic format and verify the accuracy
through the 2006 Filing Season without                   of the inventory on a quarterly basis;
the benefit of a system to prevent and                   initiate a program to evaluate employee
detect tax refund fraud. The IRS plans to                training activities relating to privacy
restore the old version of the EFDS for the              requirements; reinforce the importance of
2007 Filing Season.                                      adequate documentation to support
                                                         assessments; and implement a compliance
TIGTA recommended that the IRS                           review process. IRS management agreed
conduct a complete test of security                      with the recommendations and is taking
controls of the old system before                        corrective action.
implementation. IRS management agreed                    Report Reference No. 2006-20-166
with the recommendation and is taking
corrective action.                                       Employee Browsing
Report Reference No. 2006-20-178
                                                         The Integrated Data Retrieval System
The IRS’ Office of Privacy                               (IDRS) contains sensitive information
                                                         such as taxpayers’ names, Social Security
During the last two years, the IRS’ Office               numbers, birth dates, addresses, and
of Privacy has maintained and enhanced                   income. Because of the sensitivity of this
the IRS’ privacy program. A working                      data, the IDRS routinely generates reports
group reviews privacy and disclosure                     to identify unauthorized access to taxpayer
issues and has created an online privacy                 accounts, thus ensuring that employees
training segment for IRS employees.                      who violate the Taxpayer Browsing
TIGTA’s review showed that the IRS is                    Protection Act of 19976 are identified and
still not complying with the legislative                 appropriate actions are taken.
privacy requirements. The E-Government
Act of 20025 and IRS guidelines require                  TIGTA reported that only 42 percent of
every computer system that collects                      managers reviewed these reports during
personal information to have a current                   TIGTA’s review period. As a result,
privacy impact assessment on file. TIGTA                 employees may be browsing taxpayers’
was unable to locate these assessments for               information with little chance of detection.
130 (54 percent) of the 241 IRS computer                 The IRS has not sufficiently emphasized
systems that collect and process sensitive               the importance of these reports and has not
data. Those that were located were not                   held managers accountable for reviewing
always properly documented and
                                                         6
completed. In addition, reviews had not                    Codified at I.R.C. §§ 7213, 7213A. This Act
                                                         makes it a criminal offense to access or inspect
been conducted to validate the accuracy                  tax information without proper authorization. This
                                                         legislation focuses on the IRS ensuring that its
                                                         employees access taxpayer data for official
5
    Pub. L. No. 107-347, § 208, 116 Stat. 2946.          purposes only.




                                                                                                          7
TIGTA Semiannual Report to Congress


     them. In addition, systemic problems                      recognize a need to maintain and review
     prevented some managers from retrieving                   CADE audit trails. SAAS audit trails were
     the reports, and slow response times                      not reviewed because the data were
     hindered managers from timely identifying                 inaccurate, unreliable, and incomplete.
     unauthorized accesses. The IRS paid a
     contractor $2.4 million over three years to               TIGTA reviewed more than three million
     develop a system to deliver the reports to                audit trail records and found that
     managers, but the system is still not fully               48 percent of the data entries required by
     operational. The contract, which expired                  IRS policy contained missing or inaccurate
     in September 2005, was not renewed.                       information. Even if the data were usable,
                                                               reports and procedures for reviewing them
     TIGTA recommended that the IRS                            were not yet available, making it unlikely
     emphasize the need for managers to                        that SAAS users could identify
     review IDRS security reports and include                  inappropriate activity on modernized
     compliance with this requirement in                       systems. Although the IRS accepted the
     operational reviews. To reduce the burden                 SAAS in Fiscal Year (FY) 2002, the
     on managers, TIGTA recommended                            system requirements were still inadequate
     eliminating one of the reports that                       because much of the SAAS development
     appeared to be duplicative. TIGTA also                    effort to date had been focused on
     recommended that priority be placed on                    replacement of the Audit Trail Lead
     hiring a new contractor to address                        Analysis System.9 TIGTA’s audit results
     systemic weaknesses. IRS management                       also indicated that the problems associated
     agreed with most of the recommendations                   with the SAAS, which TIGTA reported in
     and is taking corrective action.                          August 2004,10 had not been adequately
     Report Reference No. 2006-20-111                          addressed, despite claims by the IRS that
                                                               the SAAS was functioning well.
     Detecting Improper Activity on
     Modernized Systems                                        TIGTA recommended that the IRS
                                                               establish a review process for CADE audit
     The Customer Account Data Engine                          trails. For the SAAS, TIGTA
     (CADE) system7 has its own audit trail;8                  recommended that the IRS take steps to
     audit trails for all other IRS modernized                 ensure the reliability of SAAS audit trail
     systems are combined in the Security                      data, assess SAAS requirements, and
     Audit and Analysis System (SAAS).                         develop processes that incorporate SAAS
     TIGTA’s review showed that the IRS did                    requirements. IRS management agreed
     not adequately monitor audit trails on                    with the recommendations and is taking
     these systems. As a result, browsing of                   corrective action.
     taxpayer accounts, inappropriate actions,                 Report Reference No. 2006-20-177
     and security intrusions may have occurred
     but were not identified. The IRS did not
                                                               9
                                                                 This is an IRS system that aids TIGTA in
    7
       The CADE system currently contains sensitive            researching unauthorized access of taxpayer data
      information for 1.4 million tax returns. Eventually it   by IRS employees.
                                                               10
      will house taxpayer accounts and tax return data            The Audit Trail System for Detecting Improper
      for more than 135 million taxpayers.                     Activities on Modernized Systems Is Not
    8
       An audit trail is a chronological log on a computer     Functioning (Reference Number 2004-20-135,
      system that is used to detect improper activities.       dated August 2004).




8
                                              TIGTA Semiannual Report to Congress


Volunteer Income Tax Assistance (VITA)               computers and ensure that VITA Program
Program Compliance                                   computers were included in the required
                                                     annual certification of computer inventory.
Key controls designed by the IRS to account          IRS management agreed with the
for computers that were provided to                  recommendations and is taking corrective
volunteers in the VITA Program11 were not            action.
being followed consistently. TIGTA                   Report Reference No. 2006-40-172
reported in August 200212 that the IRS did
not have adequate internal controls and
accountability for these computers.
                                                     Hurricane Relief
Though the IRS accounted for 97 percent
(191 of 197) of the computers sampled,               Hurricanes Katrina, Rita, and Wilma struck
repeated attempts were necessary to locate           the United States Gulf Coast region between
the computers. In addition, the IRS did not          August and October 2005. The aftermath of
ensure that required procedures were                 the hurricanes resulted in an unprecedented
followed when disposing of computers. The            need for Federal assistance to taxpayers who
reports used to document the disposal of             lived in the affected areas, as well as to
assets did not contain proper authorizations,        others who may have been adversely
did not detail the specific actions taken to         impacted by these storms.
locate the computers, and did not contain the
required statement on whether or not
taxpayer data were at risk.

Also, the IRS was unable to provide
documentation to demonstrate that VITA
Program computers had been consistently
included in the IRS’ annual certification of
its computer inventory. The VITA Program
computers were also not included in the
Government Accountability Office’s annual
audits of the IRS’ financial statements for
FYs 2003 through 2005.

TIGTA recommended that the IRS perform
a physical inventory and reconciliation of

11
   The VITA Program provides free tax help to
people for whom professional assistance may be
too expensive. The IRS partners with the military,   Implementation of Hurricane Tax Law
community-based organizations, and the               Changes
American Association of Retired People to assist
individuals with the preparation of basic income     The 2006 Tax Filing Season presented
tax returns.
12
   Computers Used to Provide Free Tax Help and
                                                     unusual challenges for the IRS due to the
That Contain Taxpayer Information Cannot Be          significant tax law changes enacted to assist
Accounted For (Reference Number 2002-40-144,         taxpayers who were adversely affected by
dated August 2002).




                                                                                                9
TIGTA Semiannual Report to Congress


     the hurricanes. The Katrina Emergency Tax            Oversight for Charitable Organizations
     Relief Act of 2005 (KETRA)13 was signed              Supporting Hurricane Relief
     into law on September 23, 2005, and
     contained $3.3 billion in estimated tax relief       On September 6, 2005, the IRS announced
     for FY 2006. The Gulf Opportunity (GO)               it would expedite the processing of
     Zone14 legislation followed in December              applications for tax-exempt status of new
     2005, with an additional $3.9 billion in             organizations providing relief for victims
     estimated tax relief for 2006.15 These tax           of Hurricane Katrina.16 The Exempt
     law changes involved:                                Organizations (EO) function quickly
     • an additional exemption for housing for            processed and approved new hurricane-
         individuals displaced by Hurricane               relief organizations’ Applications for
         Katrina;                                         Recognition of Exemption Under Section
                                                          501(c)(3) of the Internal Revenue Code
     • temporary suspension of limitations on
                                                          (I.R.C.) (Form 1023). These approvals
         charitable contributions and personal
                                                          better positioned the organizations to raise
         casualty losses;
                                                          funds and provide relief to hurricane
     • tax-favored withdrawals from retirement
                                                          victims. TIGTA evaluated three aspects of
         plans for qualified hurricane
                                                          this process,17 including whether the EO
         distributions;
                                                          function properly approved requests for
     • a special rule for determining earned              expedited processing of Forms 1023,
         income for taxpayers whose main home             followed procedures designed to ensure
         was in a disaster area; and                      that Forms 1023 contained the necessary
     • an expansion of the Hope Scholarship               information for determining tax-exempt
         and Lifetime Learning Credit for                 status, and took actions to ensure that the
         students in the GO Zone.                         public was timely notified of hurricane-
                                                          relief organizations that were granted tax
     TIGTA’s review of key tax law changes for            exempt status. In all three areas, the EO
     the 2006 Filing Season showed that, overall,         function effectively and timely completed
     the tax law provisions enacted to provide            its processing.
     relief to those affected by the hurricanes
     were implemented correctly. There were no            In addition, the EO function established
     audit recommendations.                               procedures to ensure that referrals of
     Report Reference No. 2006-40-088                     potentially abusive exempt organizations
                                                          were reviewed to determine if the
                                                          allegations should be sent to an EO

                                                          16
                                                             The IRS extended this treatment to
     13
        Pub. L. No. 109-73, 119 Stat. 2016 (to be         organizations seeking tax-exempt status to
     codified in scattered sections of 26 I.R.C.).        provide relief to victims of Hurricanes Rita and
     14
        The GO Zone covers certain counties in the        Wilma. Hurricane Wilma made landfall in Florida
     states of Alabama, Louisiana, and Mississippi as     on October 24, 2005.
                                                          17
     determined by the Federal Emergency                     Although the IRS included Hurricane Wilma in
     Management Agency to be eligible for either          the expedited processing of Forms 1023 and
     individual only or both individual and public        review of referrals of potentially abusive exempt
     assistance from the Federal Government.              organization activity, TIGTA focused on the EO
     15
        Public Law No. 109-135, 119 Stat. 2577 (to be     function’s processing of Forms 1023 and referrals
     codified in scattered sections of 26 U.S.C. and at   of potential abuse relating to hurricane disaster
     19 U.S.C. § 4033)                                    relief for Hurricanes Katrina and Rita only.




10
                                              TIGTA Semiannual Report to Congress


 Examinations function group for further             small number of indicators (less than
 development. Referrals related to                   0.1 percent of the total) were input
 Hurricanes Katrina, Rita, and Wilma were            manually. The manual indicators often
 sent to the Financial Investigations Unit           had an incorrect disaster period beginning
 for review. This unit developed draft               or ending date for the tax relief period.
 procedures to identify potentially abusive          TIGTA analyzed 1,150 manually input
 fundraising schemes, determined if the              disaster indicators and identified 779
 schemes involved an exempt                          (68 percent) with an incorrect beginning
 organization(s), and took action to refer           and/or ending date. In addition, when the
 the organization(s) to the EO                       IRS extended the relief ending date,
 Examinations function, the EO                       accounts with manually input indicators
 Determinations function, or another IRS             were not updated. This occurred because
 division, as appropriate.                           the computer program used for the update
                                                     identified only those accounts with
 TIGTA made no recommendations in this               systemically placed indicators. As a
 report; however, key IRS management                 result, the ending date for 748 disaster
 officials reviewed the report prior to              indicators19 was not properly extended,
 issuance and agreed with the information            and the taxpayers with these indicators on
 presented.                                          their accounts did not receive the full
 Report Reference No. 2006-10-089                    benefit of the disaster relief provisions.
                                                     TIGTA advised the IRS of this concern
 Disaster Relief Indicators for Taxpayers            during the review, and IRS management
 Affected by Hurricanes                              took action to identify and manually input
                                                     disaster indicators with corrected ending
 The IRS has correctly identified taxpayers          dates to these taxpayer accounts. TIGTA
 affected by the hurricanes and placed               also recommended that the IRS provide
 disaster indicators on their accounts. The          employees with a regularly updated job
 IRS has the authority to grant extensions           aid for disaster indicators that are input
 to file certain tax returns and pay certain         manually and emphasize the importance of
 taxes, waive penalties, and abate interest          using the correct dates for interest and
 for taxpayers affected by natural disasters         penalty calculations. IRS management
 such as hurricanes. To provide this tax             agreed with the additional
 relief, the IRS identifies taxpayers residing       recommendation and is taking corrective
 in a disaster area based on their zip codes,        action.
 and then uses a computer application to             Report Reference No. 2006-40-109
 place a disaster indicator on their
 accounts.18 Disaster indicators properly            Automated Underreporter (AUR)
 prevented balance-due notices from being            Program Compliance Activities
 issued to affected taxpayers.
                                                     The IRS took prompt action to suspend
 While most of the indicators were                   Automated Underreporter (AUR) Program
 generated by a computer application, a              compliance activities and prevent notices

18                                                   19
  TIGTA refers to these computer-generated              Some of these indicators could also be included
disaster indicators as “systemically placed          in those previously mentioned that were input
indicators.”                                         incorrectly.




                                                                                                    11
TIGTA Semiannual Report to Congress


     from being issued on approximately            believes that taxpayers would further
     27,700 tax cases involving taxpayers          benefit from a notice telling them that their
     affected by Hurricanes Katrina and Rita.      compliance activities were suspended.
     Despite these efforts, TIGTA believes that    Report Reference No. 2006-40-104
     the IRS could improve notification to
     taxpayers who had already received AUR        Taxpayer Carryback Loss Claims
     notices to advise them of the tax relief
     period and suspended compliance               When taxpayers incur a significant loss
     activities. Affected taxpayers may not        from business activities or natural
     have seen news releases or accessed the       disasters, to the extent their deductions
     IRS Web site (IRS.gov) to obtain this         exceed their income, they can opt to carry
     information. To effectively communicate       the loss back to prior tax years and obtain
     the tax relief granted during catastrophic    a refund of taxes paid in those prior years
     disasters, TIGTA recommended that the         by filing an Application for Tentative
     AUR Program send a notice directly to         Refund (Form 1045) or an Amended U.S.
     taxpayers who had previously received         Individual Income Tax Return (Form
     AUR correspondence, notifying them that       1040X). The KETRA and GO Zone laws
     compliance activities had been suspended.     include provisions that eliminate the
                                                   limitations on personal casualty or theft
     IRS management disagreed with this            losses caused by these hurricanes. The
     recommendation, stating that disaster         GO Zone Act also allows taxpayers
     victims do not always provide forwarding      affected by Hurricane Katrina who live in
     addresses; receiving notices from the IRS     the GO Zone to carry certain qualified
     may place additional burden on them; and      losses back five years.
     some may have other pending IRS actions
     on their account. IRS management              TIGTA’s review of the IRS’ processing of
     officials further stated that the AUR         carryback claims indicated that the IRS
     Program should not be singled out to          was sometimes not processing claims and
     provide notices to taxpayers and may          issuing refunds within 45 calendar days of
     confuse taxpayers regarding why notices       the form’s received date or the due date of
     were sent on some IRS actions and not on      the loss year’s return as required to avoid
     others.                                       paying interest on the refund amounts. An
                                                   analysis of a statistical sample of 499
     TIGTA disagrees with the IRS’ reasons         carryback claims20 showed that 120
     and believes that the IRS should consult      (24 percent) of the claims were not
     with the United States Postal Service         processed within the 45-day, interest-free
     (USPS) before reaching any type of a          period. As a result, the IRS paid interest
     conclusion about mail delivery.               totaling approximately $1.8 million.
     According to the USPS, mail service was       Based on this sample, about 5,700 claims
     restored quickly to the Central Gulf Coast    were not processed timely and interest of
     region. TIGTA agrees with the IRS that        approximately $20.3 million was paid
     suspending compliance activities allows       unnecessarily. If this condition is not
     taxpayers to concentrate on disaster
                                                  20
     recovery and temporarily relieves them of      TIGTA’s sample was taken from claims posted to
                                                  the IRS Master File between August 1, 2004, and
     worry about their tax obligations. TIGTA     July 30, 2005.




12
                                       TIGTA Semiannual Report to Congress


corrected, it could affect approximately       discourage and deter noncompliance with
28,400 taxpayers, and the IRS could pay        emphasis on corrupt activity by
unnecessary interest totaling over             corporations, high-income individual
$101.7 million over the next five years.       taxpayers, 21 and other contributors to the
                                               tax gap.
TIGTA’s concern in this area is
heightened because the volume of               Tax Gap Assessment
carryback claims the IRS receives is likely
to increase as a result of the hurricanes.     The IRS still does not have sufficient
The National Hurricane Center estimated        information to assess completely and
the personal damages suffered by victims       accurately the overall tax gap and
of the 2005 Gulf Coast to be nearly            voluntary compliance rate. The IRS
$100 billion. The impact of inefficiencies     faces significant challenges in both
in the IRS’ procedures will be                 obtaining complete and timely data and
compounded as the inventory of claims          in developing methods for interpreting
grows. The IRS is also going to have           the data. It is important to tax
fewer locations available to receive and       administration and tax policy decision-
process these claims as it continues to        makers that a tax gap estimate be
close Submission Processing sites.             developed that is within tolerable
TIGTA made a number of                         parameters. Otherwise, inappropriate
recommendations to help improve the            decisions can be made on how to address
identification and processing of these         the tax gap. If one assumes that in Tax
claims. IRS management agreed with the         Year (TY) 2010 the total tax liability is
recommendations and is taking corrective       the same as it was in TY 2001,
action.                                        noncompliant taxpayers would have to
Report Reference No. 2006-40-139               pay timely and voluntarily an additional
                                               $134 billion to reach a 90 percent
                                               voluntary compliance rate by 2010.
Tax Gap                                        TIGTA recommended that the IRS
                                               continue to conduct reviews on a regular
The timely filing of required tax returns is   basis for major segments of the tax gap
critical to the United States’ system of
voluntary compliance. Individuals,
                                               21
businesses, and other taxable entities with       The IRS considers high-income taxpayers to be
                                               those who file a U.S. Individual Income Tax
income over certain threshold amounts are      Return (Form 1040) with Total Positive Income
required to file income tax returns. Most      (TPI) of $100,000 or more and those business
individuals and businesses comply. The         taxpayers who file a Form 1040 with Total Gross
                                               Receipts of $100,000 or more on an attached
IRS considers non-filing to be an              Profit or Loss From Business (Schedule C) or
egregious problem because it may cause         Profit or Loss From Farming (Schedule F).
compliant taxpayers to lose faith in the       Generally, the TPI is calculated by using only
                                               positive income values from specific income fields
fairness of the tax system. When               on the tax return and treats losses as a zero. For
taxpayers pay their taxes, they want to be     example, a tax return filed with wages of $90,000,
confident that their neighbors and             interest of $12,000, and a $25,000 loss from an
                                               interest in a partnership would have a TPI totaling
competitors are doing the same. One goal       $102,000 and be considered a high-income tax
in the IRS’ 2005-2009 Strategic Plan is to     return by the IRS.




                                                                                               13
TIGTA Semiannual Report to Congress


     and that it consider establishing a tax gap            In FY 2004, the IRS assessed over
     advisory panel that includes tax and                   $2.1 billion in additional taxes on
     economic experts to identify ways to                   high-income taxpayers through its
     improve the methods to measure voluntary               Examination program. This figure
     compliance. IRS management agreed with                 includes assessments of $1.4 billion
     the recommendations.                                   (66 percent) on taxpayers who did not
     Report Reference No. 2006-50-077                       respond to the IRS during correspondence
                                                            examinations. Based on TIGTA’s
     Examinations of High-Income                            statistical sample of cases,24 approximately
     Taxpayers                                              $1.2 billion25 (86 percent) of the
                                                            $1.4 billion had been either abated26 or not
     The IRS has increased its examination                  collected after an average of 608 days
     coverage rate22 of high-income taxpayers.              from the date of assessment. The
     The increased coverage has been due                    Examination and Collection programs for
     largely to an increase in correspondence               high-income taxpayers may not be
     examinations,23 which limit the tax issues             positively affecting compliance given the
     the IRS can address in comparison to                   substantial assessments that have been
     face-to-face examinations. In addition, the            abated or not collected.
     compliance effect may be limited because
     more than one-half of all high-income                  TIGTA recommended that the IRS
     taxpayer examination assessments are not               complete its plan to maximize the
     collected timely. The examination                      compliance effect of high-income taxpayer
     coverage rate of high-income taxpayers                 examinations. This should include the
     increased from 0.86 percent in FY 2002 to              mixture of examination techniques, issues
     1.53 percent in FY 2005. While face-to-                examined, and collection procedures. IRS
     face examinations increased by 25 percent              management agreed with the
     from FY 2002 to FY 2005,                               recommendation and is taking corrective
     correspondence examinations increased by               action.
     170 percent over the same period. As a                 Report Reference No. 2006-30-105
     result, the percentage of all high-income
     taxpayer examinations completed through                The IRS’ Tip Program
     the Correspondence Examination Program
     grew from 49 percent in FY 2002 to                     Although the IRS has made some
     67 percent in FY 2005.                                 enhancements to the Tip Program since
                                                            TIGTA’s prior review,27 additional
     22
        The examination coverage rate is calculated by
                                                            24
     dividing the number of examined returns in a              TIGTA’s sample was selected from cases
     category by the number of returns in the same          completed in FY 2004 to provide sufficient time for
     category filed in the previous year.                   collection activities.
     23                                                     25
        Correspondence examinations are important              Margin of error is + 5.05 percent.
                                                            26
     compliance activities focusing on errors and              Abatement occurs when the IRS reduces an
     examination issues that typically can be corrected     assessment, in this case from reversing
     by mail. They are conducted by sending the             examination findings that had uncovered apparent
     taxpayer a letter requesting verification of certain   misreported income, deductions, credits,
     items on the tax return. These examinations are        exemptions, or other tax issues.
                                                            27
     much more limited in scope than office and field          Opportunities Exist to Improve the Tip Rate
     examinations in which examiners meet face to           Education and Determination Program (Reference
     face with taxpayers to verify information.             Number 2001-30-076, dated May 2001).




14
                                               TIGTA Semiannual Report to Congress


 improvements could help achieve a higher               database is part of a system that is not
 level of tip income reporting compliance.              fully operational but is now funded with a
 The IRS could potentially achieve                      tentative date of FY 2008 for full
 $342 million in additional tax assessments             implementation. The gaming tip
 over five years if it resumes soliciting new           agreements are maintained in a separate
 tip agreements with the cosmetology                    database that does not accommodate all
 industry and expands to the taxi/limousine             necessary information, preventing
 industry. In addition, the IRS has not                 consistent use of the information. The IRS
 consistently monitored establishments in               has developed a procedure to address
 the food and beverage and cosmetology                  some small businesses in the food and
 industries that have entered into tip                  beverage industry but a similar procedure
 agreements since FY 2000 to determine if               is needed for small businesses in other
 the secured agreements actually increased              industries.
 tip income for these establishments.
 Disparity over the number of tip                       TIGTA recommended that the IRS ensure
 agreements secured in various locations                that adequate staffing is available for
 across the country continues to be an                  monitoring tip agreements for all
 issue. The IRS does not plan to solicit                industries and use results of the
 actively any new tip agreements beyond                 monitoring to measure compliance;
 the gaming industry in FY 2006.                        prepare a workforce plan to determine the
                                                        necessary staffing levels needed to
 The IRS has not yet established an                     accomplish goals; and ensure that the
 automated system to identify business                  automated tracking system remains funded
 entities required to file an Employer’s                and, once fully operational, includes
 Annual Information Return of Tip Income                gaming tip agreements. TIGTA also
 and Allocated Tips (Form 8027).28 The                  recommended that once the procedure is
 IRS manually matched the Employer’s                    tested with the food and beverage industry
 Quarterly Federal Tax Return (Form 941)                for a year, the IRS consider developing a
 data to the database of TY 2004 Forms                  similar procedure for small businesses in
 8027, identifying 33,685 employers as                  other industries. IRS management agreed
 potential Form 8027 non-filers. The Form               with the recommendations and is taking
 8027 database data fields were not always              corrective action.
 accurate, and only the first quarter of TY             Report Reference No. 2006-30-132
 2004 Forms 941 had been matched to this
 database.                                              Private Debt Collection Program

 The IRS has automated the tracking of tip              Overall, the IRS has taken positive steps to
 agreements for the food and beverage and               plan and implement effectively certain
 cosmetology industries. This automated                 aspects of the Private Debt Collection
                                                        Program. Legislation enacted in 200429
28
   Form 8027 is an information return filed by large    permits private collection agencies (PCAs)
food and beverage establishments when the               to help collect Federal tax debts. The law
employer is required to make annual reports to the
IRS on receipts from food or beverage operations
                                                        allows PCAs to locate and contact any
and tips reported by employees. Generally, a large
                                                       29
employer is one who employs more than 10                  The American Jobs Creation Act of 2004 created
employees on a typical business day.                   the new I.R.C. Section (§) 6306 (2004).




                                                                                                     15
TIGTA Semiannual Report to Congress


     taxpayer specified by the IRS, request full    whether or not the nonfiler cases should be
     payment of the amount of Federal tax due,      excluded from inventory.
     and obtain financial information with          Report Reference No. 2006-30-064
     respect to that taxpayer.

     According to the IRS, the initiative to use    Systems Modernization
     PCAs will help reduce a significant and
                                                    of the Internal Revenue
     growing amount of tax liability deemed
     uncollectible due to IRS collection and        Service
     resource priorities; help maintain
     confidence in the tax system; and enable       Modernization of the IRS includes both
     the IRS to focus its existing collection and   computer systems and business structure
     enforcement resources on more difficult        (reorganization) modernization. Both
     cases and issues. The IRS projects that        aspects have their own set of challenges,
     over the next 10 years, PCAs could collect     and both must succeed to fully modernize
     about $1.4 billion in overdue taxes.           the IRS. According to the IRS, the
                                                    Business Systems Modernization (BSM)
     During TIGTA’s review, the IRS planned         will involve integrating thousands of
     to place 45,300 cases with PCAs starting       hardware and software components. All
     in June through September 2006. TIGTA          of this must be done while replacing
     advised the IRS that the volume of             outdated technology and maintaining the
     available cases was not sufficient to fill     current tax system.
     this particular placement plan.
     Approximately 72 percent of the cases          In the past, the IRS’ approach to
     available for placement in the program         modernizing was an enormous
     contained a balance due that was over two      development effort aimed at replacing its
     years old. The IRS has since revised its       current business systems. The IRS is now
     placement plan, including the process used     focusing on using current business
     for its case selection criteria.               systems, as well as current and future
                                                    information technology investments, to
     The IRS has a long-term strategy in place      accomplish modernization. Instead of
     to include more current cases in the           scrapping and replacing the capabilities of
     initiative. The new Filing and Payment         hundreds of current IRS systems, the IRS
     Compliance project currently limits its        will have existing systems evolve into
     ability to accomplish this strategy. For the   reusable services. While the BSM
     initial phase of the initiative, the IRS       Program shows signs of improvement, the
     wanted to place simpler cases with PCAs,       IRS needs to overcome several challenges
     such as those in which the taxpayer has        to deliver a successful modernization
     filed all returns due. Contrary to IRS         effort. As discussed below, the IRS needs
     intentions, the case selection criteria        to improve its ability to deliver smaller-
     currently in place would allow certain         scale systems such as the EFDS and the
     nonfiler cases to be assigned to PCAs.         Tax Exempt Determinations System
     TIGTA discussed its concerns and IRS           (TEDS) that have experienced systems
     management agreed to conduct further           development challenges similar to the
     review of nonfiler conditions to determine     BSM Program.



16
                                                TIGTA Semiannual Report to Congress


 Annual Assessment of the BSM                          exceed the IRS’ ability to manage the
 Program                                               BSM Program effectively and efficiently.
 The BSM Program is in its eighth year and             Since FY 2002, TIGTA’s BSM annual
 has received approximately $2.1 billion               assessments have cited four specific
 for contractor services. This past year, the          challenges the IRS needs to overcome to
 IRS began taking dramatic action by                   deliver a successful modernization effort:
 restructuring and redesigning significant             • implement planned improvements in
 areas within the BSM Program. For                         key management processes and
 example, the IRS took over the role of                    commit necessary resources to enable
 systems integrator from the PRIME                         success,
 contractor30 and changed its approach
                                                       • manage the increasing complexity and
 from completely replacing current
                                                           risks of the BSM Program,
 business systems to using current business
                                                       • maintain continuity and strategic
 systems to accomplish modernization.
                                                           direction with experienced leadership,
                                                           and
 The IRS and its contractors have
 completed modernized projects that                    • ensure that contractor performance and
 provide significant benefits to taxpayers.                accountability are effectively
 The IRS and its contractors have struggled                managed.
 to develop mature management
 capabilities and implement defined and                The IRS is at a juncture where it can build
 repeatable processes necessary for                    upon the successes and lessons learned
 effective and efficient systems                       from the first eight years of the BSM
 development. As a result, the BSM                     Program. TIGTA continues to believe that
 Program has experienced project cost                  the eventual success of the modernization
 increases and schedule delays. Due to the             effort will depend on how well the IRS
 complexity of BSM projects, it is                     deals with these four specific challenges.
 unrealistic to think that every project will          TIGTA also believes that systems
 meet its exact cost and schedule estimates.           modernization should remain a material
 Currently, several project segments are               weakness for the IRS because of open
 meeting cost and schedule estimates or are            modernization corrective actions and the
 within a 10 percent threshold. Therefore,             significance of the BSM Program to
 if the BSM Program continues to show                  external stakeholders.
 improvement, TIGTA believes that
 additional funding should be considered as            IRS management responded that it was
 long as the funding increases do not                  pleased that this report recognized the
                                                       significant action the IRS has taken to
                                                       meet the BSM Program’s many
                                                       challenges. In addition, the IRS provided
30
   The PRIME contractor is the Computer Sciences       some of the benefits BSM projects are
Corporation, which heads an alliance of leading
technology companies brought together to assist        accruing to both taxpayers and the IRS.
with the IRS’ efforts to modernize its computer        Report Reference No. 2006-20-102
systems and related information technology.
TIGTA is currently performing an audit of the IRS’
efforts to transition activities away from the PRIME
contractor.




                                                                                              17
TIGTA Semiannual Report to Congress


     Electronic Fraud Detection System                   development work, bringing the total Web
     (EFDS)                                              EFDS cost to $20.5 million.32
     The IRS was unable to use the Electronic            The lack of adequate executive oversight
     Fraud Detection System (EFDS) to                    and monitoring of the Web EFDS project
     prevent fraudulent refunds during 2006.             contributed to the EFDS not being
     As a result, an estimated $318.3 million in         implemented for 2006. Although
     fraudulent refunds may have been issued,            numerous indications of potential risks and
     resulting in lost revenue to the Federal            problems were raised throughout the
     Government. The EFDS is the primary                 project, effective corrective actions were
     information system used to support the              not taken. In addition, there were
     IRS’ Criminal Investigation Division’s              numerous changes in project management
     Questionable Refund Program, a                      and executives responsible for overseeing
     nationwide program established to detect            the Web EFDS project as well as
     and stop fraudulent claims for refunds on           excessive turnover of contractor
     income tax returns. In 2002, the IRS                employees working on the project.
     initiated an effort to redesign the EFDS to         Despite these problems, contingency plans
     improve system performance, reliability,            were not developed to ensure that the old
     and availability. The redesigned EFDS               EFDS could be used if the Web EFDS was
     Web-based application (Web EFDS)31 was              not completed timely.
     to be implemented in January 2005. Due
     to system development problems, program             TIGTA also determined that the
     implementation was delayed until January            contractor’s performance and the progress
     2006. At that time, the contractor again            of the project were not effectively
     failed to deliver a functional Web EFDS.            monitored or documented. In addition, the
     Without sufficient time to restore the prior        IRS used cost-reimbursement contracts
     version of the EFDS, the IRS had to                 without performance-based requirements,
     operate in the 2006 Processing Year                 which makes it difficult to determine
     without a program to identify fraudulently          whether deliverables were satisfactorily
     issued refunds. On April 19, 2006, the              completed.
     IRS stopped all Web EFDS development
     activities and focused all efforts on               TIGTA recommended several actions to
     restoring the old EFDS for use in January           address these issues, including:
     2007.                                               • assigning the EFDS project to an
                                                            Executive Steering Committee for
     As of April 24, 2006, more than                        improved monitoring;
     $37 million had been paid to the primary
                                                         • ensuring that other projects managed
     contractor for EFDS operations,
                                                            under the new Applications
     maintenance, and enhancements, including
                                                            Development organization are
     $18.5 million for developing the Web
                                                            assigned to the appropriate oversight
     EFDS. Two other contractors were paid
                                                            process;
     approximately $2 million for Web EFDS
                                                         32
                                                            The $18.5 million and $20.5 million amounts are
                                                         based on OA’s analysis of the total costs obtained
     31
        The system development effort will allow users   from the EFDS Project Office and the IRS’ Web-
     to access the system via the IRS Intranet.          based requisition tracking system.




18
                                                  TIGTA Semiannual Report to Congress


 •    properly identifying and addressing                  the EP function had already started to
      project risks using the appropriate                  receive a large number of applications, the
      system development life cycle                        EP function would not have realized the
      methodology;                                         full benefits of the system even if it had
 •    ensuring that contractors are held                   been working effectively. In addition,
      accountable for performance;                         while electronic information was available
 •    initiating discussions with the                      to TEDS’ users, its impact was limited
      contractor to recover the funds paid to              since the use of electronic images had not
      the contractor for additional costs                  been fully incorporated into TE/GE
      resulting from non-delivery of a                     Division operating procedures.
      functional Web EFDS; and
 •    deferring additional work on the Web                 Investments associated with the
      EFDS until the IRS decides who will                  development of TEDS Release 1 were not
      perform the EFDS work.                               appropriately tracked. This prevented
                                                           TE/GE Division management officials
 IRS management agreed with the                            from receiving the information needed to
 recommendations and is taking corrective                  evaluate their investment in TEDS
 action.                                                   effectively. The actual costs to develop,
 Report Reference No. 2006-20-108                          implement, and maintain TEDS
                                                           Release 1 (through February 17, 2006)
 Tax Exempt Determinations System                          were approximately $2.3 million higher
 (TEDS)                                                    than estimated in August 2003. The
                                                           TEDS Business Case was not
 The implementation of TEDS                                appropriately updated to reflect the
 Release 1 was expected to provide                         increased costs. As a result, TE/GE
 significant benefits to both the IRS’                     Division management could not use the
 Employee Plans (EP) function and other                    TEDS Business Case to evaluate its
 Tax Exempt/Governmental Entities                          investment decisions fully. This is critical
 (TE/GE) Division programs. The delivery                   because TEDS Release 2 is already under
 of TEDS Release 1 on March 16, 2004,                      development.
 did not significantly improve the TE/GE
 Division’s processing of determination                    TIGTA recommended that the IRS ensure
 applications or assist in providing                       that tasks needed for future releases are
 electronic EP determination information to                clearly established and that there are
 other TE/GE Division programs as                          processes in place to ensure that the most
 originally envisioned. In addition, because               current information is available to make
 it was implemented a couple of months                     informed investment decisions. IRS
 after the remedial amendment period33 and                 management agreed with the
                                                           recommendations and has taken corrective
                                                           action.
33
   A favorable determination letter may no longer          Report Reference No. 2006-10-174
apply if there is a change in a statute, regulation, or
revenue ruling applicable to pension plans. When
this occurs, the plan must be amended to comply
with the new requirements. The IRS allows plan
sponsors time, called the “remedial amendment             penalty or sanction. The remedial amendment
period,” to incorporate tax law changes without a         period ended on January 31, 2004.




                                                                                                        19
TIGTA Semiannual Report to Congress



     Providing Quality                              taxpayers making payments were not given
                                                    priority at the TACs, with average wait
     Taxpayer Service
                                                    times of 23 minutes. As a result, TIGTA
     Operations                                     recommended that the IRS develop or
                                                    modify procedures to ensure that assistors
     According to the IRS, its first strategic      provide answers to taxpayers’ tax law
     goal is to improve taxpayer service.           questions, and develop guidelines and
     Helping people understand their tax            provide training to TAC managers and
     obligations and making it easier to            assistors on how to manage customer traffic
     participate in the tax system is the first     and wait times. IRS management agreed
     step toward improving voluntary                with the recommendations and is taking
     compliance. Each year, millions of             corrective action.
     taxpayers contact the IRS seeking              Report Reference No. 2006-40-122
     assistance to understand the tax law and to
     meet their tax obligations by either calling   Volunteer Income Tax Assistance
     the various toll-free telephone assistance     (VITA) Program
     lines, accessing IRS.gov, or visiting an
     IRS Taxpayer Assistance Center (TAC).          Although return preparation at VITA sites
     For the 2006 Filing Season, approximately      has improved, significant barriers continue
     4 million taxpayers were served at TACs,       to reduce the IRS’ ability to provide
     with approximately 600,000 taxpayers           quality customer service at VITA sites and
     seeking tax law assistance.                    to measure the accuracy of prepared tax
                                                    returns. Volunteers and their partner
     Customer Service at Taxpayer                   organizations play a significant role in the
     Assistance Centers                             IRS’ tax return preparation program.
                                                    Relying on volunteers to deliver the
     Overall, the IRS had a successful 2006         program, however, has inherent risks.
     Filing Season. TAC assistors answered
     73 percent of tax law questions correctly,     The IRS must balance the needs and
     compared to 66 percent in the prior filing     desires of the volunteers with its mission
     season. The IRS reported that its telephone    and goals. As it strives to achieve its
     assistors continued to answer over 90          mission and goals and provide
     percent of taxpayers’ tax law and tax          accountability for its operations, the IRS
     account questions correctly.                   needs to continually assess and evaluate its
                                                    internal control structure to ensure that the
     TAC assistors answered some questions          VITA Program is providing accurate and
     incorrectly because they did not use the       reliable measurements, particularly
     required tools. Other contributing factors     measurements related to the accuracy of
     included the complexity of the tax law and     prepared tax returns. TIGTA
     the number of potential questions assistors    recommended that the IRS establish a
     needed to be prepared to answer. When          process to ensure that accuracy results are
     TAC assistors did not or could not answer      verifiable and validated; ensure that
     questions and/or refer taxpayers to other      training continues to emphasize the need
     IRS sources, taxpayers ultimately were         to use various quality assurance tools; and
     provided with no service. In addition,         develop a process to verify periodically



20
                                                 TIGTA Semiannual Report to Congress


 whether or not VITA site information is                  operation from 15 hours to 12 hours,
 entered accurately into the system. IRS                  thereby requiring fewer assistors to answer
 management agreed with the                               toll-free telephone calls. Congress enacted
 recommendations and is taking corrective                 legislation on November 30, 2005,
 action.                                                  restricting the IRS from reducing taxpayer
 Report Reference No. 2006-40-125                         services until TIGTA had completed a
                                                          study of the proposed changes.36
 2006 Filing Season Toll-Free Telephone                   Nonetheless, TIGTA recommended that
 Assistance                                               the IRS review all toll-free telephone
                                                          information for opportunities to educate
 The IRS planned and met its 2006 Filing                  taxpayers or to inform them of self-help
 Season toll-free telephone performance                   services on IRS.gov. IRS management
 measurement goals: 81.8 percent Level of                 agreed with the recommendation and is
 Service,34 295 seconds Average Speed of                  taking corrective action.
 Answer, and 15 million Customer Account                  Report Reference No. 2006-40-162
 Services Assistor Calls answered.
 Nevertheless, the Level of Service is still              2006 Filing Season Implementation
 below that provided during the 2004 Filing
 Season. In an attempt to reduce taxpayers’               During the 2006 Filing Season, the IRS
 time waiting to speak to assistors, the IRS              completed processing returns on schedule
 blocked more taxpayer calls in the 2006                  and issued refunds within the required
 Filing Season than in the 2005 Filing                    45 calendar days. Through May 26, 2006,
 Season.35 Although more callers waited                   the IRS had processed approximately
 less time to speak with assistors and fewer              118.9 million individual income tax returns,
 calls were abandoned while on hold, more                 including 70.9 million (59.6 percent)
 taxpayers disconnected prior to receiving                electronically. Most key tax law changes for
 assistance.                                              the 2006 Filing Season were implemented
                                                          correctly, even though the filing season was
 The IRS stated that additional costs were                unusual due to significant tax law changes to
 incurred because it was not able to reduce               assist taxpayers adversely affected by the
 the toll-free telephone hours of operation               devastation caused by the hurricanes that
 as planned while trying to maintain the                  struck the Gulf Coast States in August and
 same Level of Service during the 2006                    October 2005. In addition, significant tax
 Filing Season. The IRS had planned to                    law changes were included in provisions of
 reduce the toll-free telephone hours of                  the Working Families Tax Relief Act of
                                                          200437 and other legislation that became
34
   Level of Service is the primary measure of
                                                          effective for the 2006 Filing Season.
providing taxpayers with access to a live assistor
and has been consistent over the last three filing
seasons.
35
   A blocked call is one that cannot be connected
immediately because either no circuit is available at
                                                         36
the time the call arrives (e.g., the taxpayer receives     The Transportation, Treasury, Housing and
a busy signal) or the system is programmed to            Urban Development, the Judiciary, the District of
block calls from entering the queue when the             Columbia, and Independent Agencies
queue backs beyond a defined threshold (e.g., the        Appropriations Act, Pub. L. No. 109-115,
taxpayer receives a recorded announcement to call        119 Stat. 2396 (2006).
                                                          37
back at a later time).                                       Pub. L. No. 108-311, 118 Stat. 1166 (2004).




                                                                                                             21
TIGTA Semiannual Report to Congress


     TIGTA made recommendations to improve             The income limit was not the only factor
     the processing and accuracy of returns            affecting the success of the Free File
     containing the following tax provisions:          Program. A significant number of
     • taxpayers over the age of 70½ receiving         taxpayers continue to prepare their returns
         improper Individual Retirement Account        electronically but file the returns on paper.
         deductions;                                   In 2005, 72.5 percent of the 62 million
     • eligible taxpayers not taking full              taxpayers who filed their returns on paper
         advantage of the sales tax deduction;         actually prepared their returns on
         and                                           computers. If these taxpayers had filed
     • single taxpayers continuing to claim a          electronically, the IRS could save
         non-permissible “dual benefit” by taking      approximately $106.7 million in
         both the tuition and fees deduction and       processing costs. Many of the issues
         the Education Credit.                         affecting the program are the result of the
                                                       IRS having to work through the tax
     IRS management agreed with most of the            preparation industry to provide the Free
     recommendations and is taking corrective          File Program.
     action.
     Report Reference No. 2006-40-164                  TIGTA’s review of the Free File Program
                                                       Internet page found that it could be
     The IRS’ Free File Alliance                       confusing or difficult for some taxpayers
                                                       to use. TIGTA recommended that the IRS
     Although 6 percent more taxpayers filed           expand the Guide Me To A Service tool to
     electronically during the 2006 Filing             include a summary of the services
     Season than during the 2005 Filing                available from the Alliance member
     Season, changes to the Free File Program          companies and provide a direct link to a
     reduced the number of taxpayers eligible          Spanish version of the Free File Program
     to use the program. The Free File                 webpage. The Spanish version of the page
     Program provides free online tax return           should include basic information about the
     preparation and filing services through           program and its benefits as well as a tool
     IRS.gov but is limited to specific                similar to Guide Me To A Service that will
     taxpayers. The October 2005 agreement             help Spanish-speaking taxpayers identify a
     between the IRS and tax software                  provider. IRS management agreed with
     companies eliminated roughly 39 million           the recommendations and is taking
     taxpayers from eligibility for the program        corrective action.
     during 2006 by limiting it to those with an       Report Reference No. 2006-40-171
     adjusted gross income38 of $50,000 or less.
     As of the end of April 2006, participation        The IRS’ Reduction in Toll-Free
     in the program had dropped nearly                 Telephone Hours of Operation
     23 percent compared to the same time in
     the prior year.                                   The IRS does not always have reliable
                                                       management information needed to make
                                                       sound business decisions. For example,
                                                       the data the IRS used to make its decision
                                                       to reduce toll-free telephone operating
     38
        Adjusted gross income is income less certain   hours shows a savings of approximately
     deductions and/or expenses.




22
                                             TIGTA Semiannual Report to Congress


$18 million, or 410 Full Time Equivalents           Automated Underreporter (AUR)
(FTEs),39 for FY 2004. Using FY 2005                Toll-Free Telephone Operations
data, the most current complete data
available, TIGTA determined that the                While the IRS is improving taxpayer
savings potential was considerably less,            services, a number of challenges remain,
approximately $914,000, or 20 FTEs. The             including its ability to provide an adequate
savings are reduced because the IRS                 Level of Service on its AUR toll-free
implemented cost-saving measures and                telephone operations. Since 1998, the IRS
realized efficiency gains after FY 2004.            has been providing direct AUR toll-free
TIGTA could not duplicate or validate               telephone service to taxpayers who have
many of the assumptions used to calculate           questions about AUR Program notices that
the savings. The IRS also did not obtain            they receive. The IRS has implemented a
taxpayer feedback or conduct focus groups           new Universal Call Routing system that
to determine caller preferences or the              allows for more efficient use of available
impact that changing the hours of                   telephone assistors and improved
operation would have on taxpayers.                  automated menus and messages to address
                                                    customer concerns raised about their
TIGTA recommended that the IRS update               effectiveness.
the proposal to change toll-free hours of
operation with the most current data                The AUR Program established a
available, and provide the updated                  75 percent Level of Service goal for
information to external stakeholders                FY 2006; however, for the first six months
before proceeding with any of these                 of FY 2006, it averaged only a 61 percent
changes. The IRS should also complete               Level of Service. An increase in the
the Taxpayer Assistance Blueprint, the              number of AUR notices sent to taxpayers
five-year study the IRS is undertaking to           and the resulting unanticipated increase in
improve taxpayer service, before taking             call volume appear to have contributed to
any action to change toll-free telephone            the lower Level of Service in the second
hours so that taxpayer preferences and              quarter of FY 2006.
needs can be taken into consideration.
It should also maintain complete                    In addition, the AUR Program has not
documentation to support significant                established goals for monitoring the Level
business decisions, particularly those              of Service provided to Spanish-speaking
affecting taxpayer services. IRS                    callers, who were often unable to obtain
management agreed with the                          access to bilingual assistors. During FYs
recommendations and is taking corrective            2003-2005, only 40 percent of the callers
action.                                             requesting a Spanish-speaking assistor
Report Reference No. 2006-40-169                    were able to speak with one. TIGTA
                                                    recommended that the IRS increase the
                                                    Level of Service goal for AUR toll-free
                                                    telephone operations and increase the
39
                                                    number of bilingual AUR Program
  An FTE is a measure of labor hours in which
one FTE is equal to eight hours multiplied by the
                                                    assistors available to handle the demand
number of compensable days in a particular fiscal   from Spanish-speaking taxpayers. IRS
year. For FY 2006, one FTE is equal to 2,080        management agreed with some of the
staff hours.




                                                                                            23
TIGTA Semiannual Report to Congress


     recommendations and is taking corrective       162 (21 percent) of the 788 organizations
     action.                                        contained on the Exempt Organizations
     Report Reference No. 2006-40-138               (EO) function’s inventory of credit
                                                    counseling organizations may not have
                                                    been properly identified.
     Tax Exempt
                                                    As part of the Credit Counseling
     Organizations
                                                    Compliance Project, EO function
                                                    management developed some guidelines
     Taxpayers, organizations, and the general
                                                    on how to process requests for tax-exempt
     public rely on the IRS to ensure that
                                                    status from credit counseling
     tax-exempt entities operate in a manner
                                                    organizations. These guidelines were
     consistent with their tax-advantaged status.
                                                    generally informal in nature.
     The IRS is working to enhance its
     enforcement of tax laws impacting the
                                                    TIGTA recommended that the IRS take
     tax-exempt sector, but it continues to face
                                                    necessary action to ensure that the
     challenges in ensuring that these
                                                    inventory system contained accurate
     organizations comply with applicable laws
                                                    information related to tax-exempt credit
     and regulations to qualify for tax-exempt
                                                    counseling organizations and finalize and
     status.
                                                    implement a plan for addressing current
                                                    and future credit counseling activities.
     Abuses in the Tax Exempt Credit
                                                    TIGTA also recommended that the IRS
     Counseling Industry
                                                    update and formalize application
     According to the IRS, the focus of the         processing procedures and related training
     credit counseling industry has shifted over    guides to ensure the consistent processing
     the past several years from providing          of applications for tax-exempt status by
     education or charitable service to enrolling   credit counseling organizations. IRS
     debtors inappropriately in proprietary debt    management agreed with the
     management plans and credit-repair             recommendations and is taking corrective
     schemes for a fee.                             action.
                                                    Report Reference No. 2006-10-081
     In response to concerns that many credit
     counseling organizations were in violation     Customer Identification
     of I.R.C.§ 501(c)(3) requirements, in
                                                    To effectively ensure compliance with the
     FY 2003, the IRS began to address abuses
                                                    I.R.C., the IRS’ Federal, State, and Local
     by tax-exempt credit counseling
                                                    Governments (FSLG) office determined
     organizations, including revoking
                                                    that it needed to identify its customer base.
     tax-exempt status for some organizations.
                                                    TIGTA determined that the manual
     TIGTA’s review of the IRS’ plans to
                                                    process used to code some governmental
     address these abuses identified the need to
                                                    entities has caused IRS publications to be
     improve the IRS’ inventory of credit
                                                    issued unnecessarily. In addition, tax
     counseling organizations. An accurate
                                                    delinquency notices may have been issued
     inventory would enable the IRS to ensure
                                                    to some Federal entities, which may have
     that its efforts can adequately cover the
                                                    increased taxpayer burden.
     industry. Specifically, TIGTA found



24
                                                TIGTA Semiannual Report to Congress


In a prior audit,40 TIGTA reviewed the                 of limited resources and management
office’s initial attempts to identify its              turnover. Other efforts to identify
customers and reported that it needed to               government entities resulted in 1,183
take a more structured approach to ensure              additional Federal, State, and local
success. At that time, the FSLG office had             governments being manually coded as
obtained a download of the United States               such on the IRS computer system. Efforts
Census Bureau’s 2002 Government                        to code some customers accurately were
Integrated Directory (Census Bureau                    hindered by computer programming
database) to use in identifying incomplete             limitations. The FSLG office was aware
or inaccurate customer information on the              of some of the programming limitations
IRS computer system. Both databases                    and attempted to overcome them
used a different format for entities’ names            manually.
and addresses, which made a systemic
match difficult.                                       TIGTA recommended that the IRS
                                                       determine the best method to proceed with
Since the prior audit, the FSLG office has             identification of Federal, State, and local
continued to identify customers both by                governments and then develop a detailed
matching the Census Bureau database to                 action plan that includes tasks to be
the IRS Returns Inventory and                          accomplished, responsible personnel,
Classification System41 and through                    deadlines for completion of each task, and
additional research. FSLG office                       methods to monitor progress. In addition,
management has made limited progress.                  the IRS should request additional
Results of the address match of                        computer programming changes to allow
organizations need further analysis to                 for accurate coding of customers on the
ensure that the organizations are recorded             IRS computer system. The IRS should
correctly on the IRS computer system and               also request that written IRS procedures be
coded properly as FSLG office customers.               updated to reflect the revised process for
                                                       coding Federal, State, and local
TIGTA noted that the FSLG office had not               governments on the IRS computer system.
coded any additional entities as Federal,              IRS management agreed with the
State, or local governments on the IRS                 recommendations and is taking corrective
computer system from the comparison of                 action.
the Census Bureau database to the IRS                  Report Reference No. 2006-10-124
database. This effort was delayed because




40
   The Federal, State, and Local Governments
Office Is Taking Action to Identify Its Customers,
but Improvements Are Needed (Reference
Number 2004-10-104, dated May 2004).
41
   The Returns Inventory and Classification
System provides users access to return and filer
information related to the filing and processing of
employee plans, exempt organizations, and
government entities forms.




                                                                                              25
TIGTA Semiannual Report to Congress




            The power of taxing people and their
            property is essential to the very
            existence of government.


                                  ~ James Madison




26
                                         TIGTA Semiannual Report to Congress




                                              Protect the
                                              Integrity of
                                       Tax Administration


T       IGTA is statutorily charged with
        protecting the integrity of tax
        administration. TIGTA
accomplishes this through its Office of
Investigations (OI) by conducting
                                                administration. OI opened 1,669
                                                investigations in these three primary areas
                                                during this reporting period. The model is
                                                a valuable tool that allows OI to identify
                                                where resources are being allocated, and
proactive and reactive criminal and             to ensure that OI continues to focus its
administrative investigations involving         investigative efforts on its core mission.
internal issues (IRS employee
misconduct) and external threats or
interference. OI utilizes unique strategies,                 FY 06 Performance Triangle
                                                                   Semi Annual Report
tools, and methods to detect fraud, waste,                April 1, 2006 to September 30, 2006
and abuse, and to protect the integrity of
the tax system.
                                                            19%
                                                                                                30%



Performance Model
Consistent with OI’s mission of protecting                        51%

tax administration and in response to the
                                                         Infrastructure    Employee        External
President's Management Agenda, OI
created a progressive performance
measurement process for its law
                                                Faced with the traditionally difficult
enforcement operations. A noteworthy
                                                challenge of measuring the value of law
aspect of the performance measurement
                                                enforcement activities, TIGTA created a
process involves OI’s use of a
                                                formula for identifying positive
performance model that both guides the
                                                investigative results stemming from its
activities of OI personnel and
                                                law enforcement activities. Rather than
demonstrates the value of its
                                                simply tracking the number of
accomplishments to external stakeholders.
                                                investigations, TIGTA’s performance
The Performance Model (illustrated on
                                                model measures the ratio of total
page 28) identifies the three primary areas
                                                investigations conducted that had a
of investigation: employee integrity;
                                                positive impact on IRS operations or the
employee and infrastructure security; and
                                                protection of tax administration.
external attempts to corrupt tax



                                                                                                      27
TIGTA Semiannual Report to Congress




28
                                         TIGTA Semiannual Report to Congress

Examples of some of OI’s investigative          matters with a clear nexus to TIGTA’s
activities that are factored into the           core mission. Any imbalance in human
performance model include:                      capital resources is detectable through the
• reports of investigation that enable the      study of specific performance results.
    IRS to adjudicate an employee               Information regarding staffing needs and
    misconduct allegation;                      geographic realignment determinations is
• investigations that provide enough            readily available, if necessary.
    evidence to result in a successful          Management responsibility and span of
    criminal prosecution; and                   control has been increased without
• security advisories that notify the IRS       negatively impacting the level of
    of potential threats to its employees or    high-quality productivity. The value
    infrastructure.                             added by OI’s performance measurement
                                                model illustrates comprehensible and
The performance measurement system              measurable results.
provides relative performance information
necessary for OI to effectively manage its
seven investigative field divisions which       Protecting Sensitive
cover diverse geographic and                    Taxpayer Information
demographic areas. Through the use of
the performance model, OI executives and        The IRS is entrusted with maintaining
senior managers are able to set and adjust      sensitive taxpayer information, including
performance expectations for each field         personal identity information that, if
division that account for operational           misused, could result in identity theft and
conditions unique to that specific field        other fraudulent activity. OI ensures the
division. Each field division plays a part      privacy and security of taxpayer
in contributing its individual performance      information by detecting and deterring:
results to the organization's overall goal,     • unauthorized access (UNAX) to
thus empowering every employee to be a              taxpayer information by IRS
contributor to the agency's success. The            employees; and
system has proven to be an outstanding          • individuals, both inside and outside of
tool for managing a large, complex law              the IRS, who attempt to gain
enforcement organization, such as                   unauthorized access to IRS computer
TIGTA’s.                                            systems.
The OI performance model, which is              OI’s Strategic Enforcement Division
focused on core mission-related                 (SED) utilizes a variety of audit trail and
objectives, has been used effectively for       forensic data analysis tools to proactively
gauging almost every aspect of OI’s             identify potential UNAX violators as well
operations. In addition to quantifying          as systemic problems and weaknesses.
productivity, the model is a reliable source    Investigative leads developed by SED are
for determining budget, training, and           currently substantiated as actual UNAX
staffing needs. OI’s budget submissions         violations more than 90 percent of the
are driven by the model and based on            time. As the IRS continues its efforts to
information derived from completed work         modernize and expand services to
products. Special agent training courses        taxpayers through the development of new
are focused specifically on investigative       automated systems, UNAX will be an


                                                                                         29
TIGTA Semiannual Report to Congress

     ever-increasing threat to the security of    impact on tax administration resulting
     taxpayer data. The IRS has identified        from these computer or data thefts. The
     more than 260 applications that will be      cooperative effort includes a process to
     created under this modernization effort      accurately report and document lost
     and is working to ensure that each will      and/or stolen IRS Information Technology
     have audit trail capabilities. The           (IT) assets. TIGTA will provide a daily
     availability of these audit trails will      electronic download to CSIRC informing
     provide OI with a unique opportunity to      them of any IT asset losses reported to
     identify potential UNAX violations and       TIGTA. CSIRC will also provide TIGTA
     properly investigate misconduct. In this     with similar information reported to their
     reporting period, OI closed 317 UNAX         network operations center. This
     investigations, of which 18 cases resulted   immediate notification process will
     in criminal prosecutions, and 239 cases      promote a swift response, and possibly
     resulted in adverse disciplinary action      preemptive measures, to protect sensitive
     against IRS employees.                       information maintained by the IRS.

     TIGTA has also coordinated efforts with      Former IRS Employee Pleads Guilty to
     the IRS to protect taxpayer data through a   Unauthorized Inspection of Returns or
     computer security program designed to        Tax Return Information
     secure IRS systems and equipment from
     unauthorized access. The TIGTA               According to court documents, Mary
     computer intrusion unit, identified as       Mattinson, a former IRS employee, was
     SINART (System Intrusion Network             sentenced in August 2006 to 12 months of
     Attack Response Team), provides              probation, 150 hours of community
     computer security and intrusion              service, and a $25 special assessment after
     prevention and response capabilities for     pleading guilty to the unauthorized
     all IRS information systems, hardware,       inspection of tax return information.
     telecommunications, networks, internet       Between July 2002 and November 2004,
     sites, and vendor-supplied software          Mattinson intentionally inspected the tax
     products.                                    return information of six taxpayers. The
                                                  taxpayers were all individuals with whom
     OI works closely with the IRS to identify    Mattinson had a personal relationship.
     incidents involving lost or stolen
     Government computers that contain            IRS Employee Pleads Guilty to the
     sensitive taxpayer or personal               Unauthorized Inspection of Tax
     identification information, and              Returns and Tax Return information
     aggressively pursue the responsible          In May 2006, IRS employee Edward
     individuals. During this semiannual          James Goolsby pled guilty to unlawfully
     reporting period, TIGTA and the IRS          accessing taxpayer financial information.
     Computer Security Incident Response          According to court documents, Goolsby,
     Center (CSIRC) entered into a                intentionally and unlawfully accessed IRS
     collaborative venture in response to         computers to obtain taxpayer information
     increased reports of theft of Government-    on a relative who was seeking custody of
     owned computers. This TIGTA-initiated        Mr. Goolsby’s children.
     working group coordinates activities with
     the IRS CSIRC to mitigate any adverse



30
                                     TIGTA Semiannual Report to Congress


Former IRS Employee Pleads Guilty to        2005 and August 2005, Nicholson made
Making False Entries into IRS               numerous false entries into IRS databases
Databases to Hide Poor Job                  concerning the W-2 records she was
Performance                                 assigned to verify. Nicholson admitted to
                                            TIGTA that she entered false names of
According to a plea agreement filed in      contact persons, false earned income, and
U.S. District Court, Diana Nicholson, a     false employment status information on
former IRS employee, pled guilty in         the W-2 records to hide the fact that she
May 2006 to making false entries into       failed to perform her duties, and to
IRS databases in a matter within the        eliminate her assigned work. According
jurisdiction of a Government agency, and    to court documents, in August 2006,
aiding and abetting. Nicholson, while       Nicholson was sentenced to five years
employed by the IRS, was responsible for    supervised probation, 500 hours of
verifying electronic employer tax           community service, and a $100 special
withholding documents known as “W-2s”       assessment.
for fraudulent activity. Between January


 Former IRS Employee Charged with            Former IRS Employee Pleads Guilty
   Fraudulently Obtaining Federal              to Unauthorized Access to IRS
   Income Tax Refunds and Social                         Database
          Security Benefits
                                            According to a plea agreement
According to an indictment filed in         filed in U.S. District Court, Hazel
U.S. District Court, Christina Lane         Leora Jones pled guilty in April
Unser, a former IRS employee, was           2006 to unauthorized computer
indicted for exceeding her                  access. While an employee of the
authorized access to an IRS                 IRS, Jones accessed an IRS
computer in order to fraudulently           computer database containing
obtain over $11,900 in Federal              taxpayer information in order to
income tax refunds between                  search for taxpayers with the same
February 2002 and May 2004. Unser           first and last name as one of her
was also charged under the                  relatives. By means of the
indictment with possessing and using        unauthorized computer access,
the name and Social Security number         Jones was able to create a list of
of another person to fraudulently           dozens of taxpayers with the same
obtain approximately $43,174 in             name as her relative, with a
Social Security benefits. As part of        corresponding Social Security
Unser’s scheme to fraudulently obtain       number for each of the taxpayers.
these benefits, she used someone            Jones provided the list to her
else’s identity on documents that she       relative knowing that he intended
signed and submitted to the Social          to use the information to commit
Security Administration.                    financial fraud through identity
                                            theft for private financial gain.




                                                                                   31
TIGTA Semiannual Report to Congress

                                                   potential threats against IRS employees
       Former Supervisory IRS Employee             and infrastructure, and refers the related
          Sentenced for Exceeding                  reports to the IRS Office of Employee
           Authorized Access to IRS                Protection (OEP), which is responsible for
                 Computers                         administering the Potentially Dangerous
                                                   Taxpayer (PDT) program. The PDT
      After pleading guilty to exceeding           program was established to help the IRS
      her authorized access to IRS                 identify taxpayers who present a potential
      computers and obtaining                      danger to employees attempting to do
      taxpayer information from the IRS            their jobs. The Caution Indicator (CAU)
      for personal benefit, former IRS             system was also put in place for taxpayers
      employee Janine Turner was                   who did not reach the PDT threshold, but
      sentenced in May 2006 to one                 who nevertheless warranted caution upon
      year and a day incarceration,                contact. OEP is responsible for the
      followed by two years’ supervised            overall operation, management, and
      release, and a $3,000 fine.                  oversight of the PDT and CAU programs.
      Court documents indicated that
      between January 2000 and                     OI maintains a cooperative relationship
      November 2003, Turner unlawfully             with OEP, and monitors the placement of
      accessed IRS computers on                    PDT and CAU indicators on taxpayers as
      approximately 150 separate                   a result of OI’s investigations. OI has
      occasions for private financial              worked together with OEP to ensure that
      gain. During the timeframe that              the appropriate designations are being
      Turner was making the accesses in            placed on the accounts of taxpayers who
      question, she was employed by                threaten the safety of IRS employees.
      the IRS in a supervisory capacity            During the reporting period, OI referred
      with oversight responsibilities for          306 cases to OEP. Additionally, 502 of
      access and disclosure of restricted          the cases reviewed by OEP during the
      taxpayer information.                        reporting period resulted in PDT or CAU
                                                   designations.

                                                   TIGTA Arrests Individual for Making
     Threat/Assault Investigations                 Threats against IRS Employee
                                                   Timothy Watson was arrested by TIGTA
     IRS employees are entrusted with              special agents for making threats against
     promoting tax compliance and enforcing        an IRS employee in July 2006. According
     the tax code. With that responsibility        to court documents, an IRS Revenue
     comes certain challenges and potential        Officer reported that he received a
     dangers. It is important that employees be    voicemail message from Watson
     able to perform their jobs without fear of    containing several threatening statements.
     retribution, and that the administration of   Watson left the message in response to the
     the tax system proceeds without               IRS employee taking collection
     obstruction.                                  enforcement action against him. The
                                                   criminal complaint filed against Watson
     OI conducts investigations of alleged         noted that during an interview with
     assaults, threats, interference, and          TIGTA special agents, Watson


32
                                     TIGTA Semiannual Report to Congress

acknowledged that he called the IRS         agents about the seriousness and possible
employee and left him a voicemail           consequences of making threats against
message in which Watson made                IRS employees, Watson contacted the
comments to the effect of cutting heads     same IRS employee by telephone and
off and blowing up buildings. Subsequent    made additional threats.
to being advised by the TIGTA special



             Individual Sentenced for Threatening TIGTA Special Agent

 In April 2006, David D’Addabbo              attempting to collect taxes would
 was indicted for corruptly                  be "tried by a jury of common
 endeavoring to obstruct and                 people,” and “could be found
 impede the due administration of            guilty of treason and taken
 the Internal Revenue laws, mailing          immediately to a firing squad.”
 threatening communications, and
 threatening Federal officials.              According to court documents,
 According to court documents,               after being arrested by TIGTA
 D’Addabbo allegedly signed and              special agents in connection with
 filed a petition in September 2005          his alleged threats to the IRS
 with the U.S. Tax Court threatening         employee, and while being
 an IRS employee. D’Addabbo                  transported to a correctional
 allegedly stated in the petition that       facility, D’Addabbo threatened to
 if the IRS employee persisted in his        assault and murder two of the
 efforts to collect income taxes from        TIGTA special agents.
 another individual, the IRS
 employee would be tried by a jury           In August 2006, D’Addabbo pled
 and a penalty of death by firing            guilty to threatening a Federal
 squad would “be sought.”                    official. D’Addabbo was
 D’Addabbo also allegedly filed a            sentenced to time already served
 second petition with the U.S. Tax           in prison, and three years
 Court in October 2005 that                  supervised release conditional on
 purported to order the IRS to return        his participation in anger
 all monies collected from another           management counseling and
 individual and to stop all liens and        adherence to his prescribed
 levies. In this second petition,            medication regimen. D’Addabbo
 D’Addabbo allegedly made                    also was ordered to pay a special
 statements warning that anyone              assessment fee of $100.




                                                                                   33
TIGTA Semiannual Report to Congress


     Fraud Investigations                          According to court documents,
                                                   Spears was indicted for fraudulently
     OI special agents investigated a number       obtaining FEMA funds after he filed
     of fraud cases during this reporting          a claim with FEMA stating that he
     period. The following are examples of         resided in New Orleans, Louisiana,
     cases that involved particularly egregious    and had an “essential need for food,
     fraudulent activity:                          shelter, and clothing.” Spears
                                                   actually worked and resided in
     IRS Employee Sentenced for                    Houston, Texas. Spears received a
     Defrauding FEMA of Hurricane                  $2,000 payment from FEMA as a
     Katrina Aid                                   direct result of the fraudulent
                                                   information he provided to FEMA.
     In May 2006, IRS employee Barney
     Spears was sentenced after pleading           Spears was sentenced to six months
     guilty to making a false claim with           in prison, three years of supervised
     the Federal Emergency Management              release, and restitution payments to
     Agency (FEMA) for Hurricane                   the U.S. Government in the amount
     Katrina disaster relief benefits.             of $4,358.


                    Individual Pleads Guilty to Conspiracy to Defraud IRS

     According to a plea agreement                  At least one hundred fraudulent
     filed in U.S. District Court, in April         returns were filed by the individual’s
     2006, Russell Bradd II pled guilty to          firm using these fraudulent
     the charge of conspiracy to                    practices. The total amount of the
     defraud the Government                         refunds claimed was at least
     concerning his involvement in a                $362,691, and the IRS actually issued
     scheme to obtain payments from                 payments of approximately
     the IRS after filing fraudulent Federal        $275,182. The clients involved in the
     income tax refund claims.                      scheme typically would not see the
     According to court documents,                  tax returns that were filed and
     Bradd operated a financial services            would only be contacted when the
     firm which purported to provide                refund checks arrived. The clients
     income tax related services to some            were told that the proceeds from
     of its clients. Bradd would solicit            the checks would be split between
     these clients to join a “tax                   them and the individual; however,
     investment program.” Once the                  in many instances, the clients did
     client signed up for the program,              not receive any payments resulting
     Bradd would provide that client’s              from the tax returns filed under their
     tax-related information to another             names. In September 2006, Bradd
     individual involved in the scheme.             was sentenced to 18 months in
     The other individual would then                prison, three years of supervised
     prepare and file false tax returns or          release, and restitution payments to
     false amended tax returns claiming             the U.S. Government in the amount
     false and fictitious credits and               of $275,182.
     deductions on behalf of the clients.



34
                                        TIGTA Semiannual Report to Congress


Individual Sentenced for Fraud in              Individual Indicted in Wire Fraud
Scheme Involving False                         Scheme Using Fraudulent IRS
Representations about Ability to               Documents
“Fix” Pending Criminal Tax
Investigation                                  In May 2006, Christopher Wade
                                               was charged by a Federal grand jury
In August 2006, Greg Takesian was              with wire fraud in a scheme
sentenced after pleading guilty in             involving fraudulent IRS
May 2006 to wire fraud. Between                documents. According to court
October 2002 and April 2003,                   documents, Wade defrauded several
Takesian and two co-schemers                   people by representing to the
participated in a plan to obtain               victims that he would purchase
money from a taxpayer by                       vehicles for them at an IRS auction,
fraudulently representing their                when in fact there was no such
ability to “fix” a pending criminal            auction. On one occasion, Wade
tax investigation against the                  even produced a letter on fabricated
taxpayer. Takesian, upon learning              IRS letterhead as part of his scheme
that the taxpayer was the subject of           to defraud one of his victims. The
a criminal tax investigation,                  letter detailed the vehicles Wade
informed the taxpayer that he had a            purportedly purchased from the IRS
friend who knew someone who                    on behalf of the victim. Wade is
could help the taxpayer. The                   known to have obtained more than
taxpayer provided Takesian with a              $38,000 from various victims,
check for $20,000, which Takesian              including about $10,250 wired to
deposited in his bank account. In              him via Western Union by one of
November 2002, Takesian wired                  the victims.
$15,000 from his bank account to
the bank account of one of the
co-schemers.                                   Private Collection Agencies
In December 2002, Takesian and his             An emerging issue impacting OI is the
two co-schemers met with the                   IRS Private Debt Collection (PDC)
taxpayer. During the meeting, one              initiative, designed for contracting with
of the co-schemers stated that he              Private Collection Agencies (PCAs) for
was a former IRS special agent and             the collection of delinquent Federal tax
the he would soon bring the                    debts, as authorized by the 2004 American
investigation against the taxpayer to          Jobs Creation Act. The law intends to
an end.                                        subject the PCAs to the same stringent
                                               taxpayer protection and privacy rules
In August 2006, Takesian was                   under which IRS employees currently
sentenced in U.S. District Court to a          work. The IRS also developed guidelines
term of two years of probation, the            for the PCAs, including background
first two months of which were to              checks on all personnel associated with
be under home confinement, a                   the project and completion of a mandatory
special assessment of $200, and a              training program directed by the IRS. The
fine of $3000.                                 PCAs will receive tax collection cases
                                               from the IRS in which the taxpayer has


                                                                                      35
TIGTA Semiannual Report to Congress

     not disputed the liability. The PCAs will       As a result of the PDC initiative, OI
     not be authorized to take enforcement           anticipates an increase in overall workload
     actions (liens, levies, or seizures), or work   arising from complaints concerning
     on technical issues (offers in compromise,      contract employees violating taxpayer
     bankruptcies, hardships, or litigation).        rights or privacy, complaints about
     Over the course of 10 years, the IRS            taxpayers offering bribes, assaults and/or
     expects to contract with as many as             threats, and issues regarding
     10 private collection firms to help collect     contract/procurement fraud, as well as the
     $1.4 billion in outstanding taxes.              increased need for TIGTA to provide
                                                     integrity awareness briefings to contract
     Consistent with TIGTA protecting tax            employees.
     administration, OI has played a critical
     role in the implementation of the PDC
     initiative by providing oversight, input,       Procurement Fraud
     and support to the IRS. OI reviewed the
                                                     Investigations
     procurement documents used by the IRS
     during the bid solicitation phase that
                                                     OI’s Procurement Fraud Section (PFS),
     resulted in the IRS awarding PCA
                                                     located within the Special Inquiries and
     contracts to three companies. This review
                                                     Intelligence Division (SIID), is
     allowed OI to address concerns with the
                                                     committed to the identification and
     IRS about:
                                                     investigation of procurement fraud within
     • the background investigation process          the IRS. PFS plays a valuable role in
          for PCA employees;                         protecting the integrity of IRS
     • physical security issues;                     procurements. Currently, the combined
     • IRS’ distribution of cases to the PCAs;       value of active IRS procurements,
     • processes and requirements for PCAs           accounting for each contract’s base and
          to report issues concerning                option years, is $22 billion. Special
          improprieties to TIGTA; and                agents within the PFS possess the
     • the content and method for training           specialized skills necessary to identify
          PCA employees.                             contract fraud and ensure that individuals
                                                     and businesses responsible for such fraud
     OI also participated in the production of a     are held accountable. These
     training video to be used in required PCA       investigations, while very labor and time
     employee training. During this reporting        intensive, relate directly to TIGTA’s core
     period, OI made on-site visits to the           mission of preventing external attempts to
     PCAs, and provided presentations to             corrupt the IRS’ ability to administer the
     139 PCA employees and managers. OI’s            tax laws effectively. These types of
     Strategic Enforcement Division (SED)            investigations often result in criminal
     also collaborated with the IRS Computer         indictments, civil complaints,
     Security Incident Response Center               administrative adjudications, debarments
     (CSIRC) to conduct on-site vulnerability        from Government contracting, and
     tests of the computer systems maintained        referrals to the Office of Audit. The PFS
     by the three PCAs that received contracts       achieves its goals in this area through
     from the IRS.                                   proactive and reactive investigations,
                                                     fraud awareness presentations,



36
                                          TIGTA Semiannual Report to Congress

investigative initiatives, data analysis, and    allows law enforcement authorities, using
liaison.                                         a computer and a secure Internet
                                                 connection, to remotely view images
Federal Government Contractor                    captured by surveillance cameras. OI was
Sentenced for Submitting False Claims            able to utilize this technology when an
                                                 unknown substance/hazardous material
Fulton & Associates, Inc. (FAI), a U.S.          incident occurred in an IRS Service
Government contractor, pled guilty in            Center’s Receipt and Control Extraction
May 2006 to submitting false claims to           Unit. The technology allowed OI to
the U.S. Government. According to court          obtain information regarding the nature of
documents, in 2000, FAI, a certified             the threat in an accurate and timely
Section 8(a) Small Business Government           fashion.
Contractor, entered into a contract with
the IRS to provide telecommunication             OI has also successfully utilized this
software designed to integrate a myriad of       technology during investigations to
the IRS’ telecommunication network               identify individuals involved in the theft
systems. The contract was in place until         of money and/or equipment from
2005. During 2001, FAI submitted                 Government employees. Hidden
several invoices to the IRS for payment          surveillance cameras equipped with
when there was no reasonable basis to            motion sensors that send alarms and
believe that the labor listed on the invoice     images to investigators via the Internet
had been performed on the contract.              can be set up at the site of suspected
These false claims resulted in a loss to the     ongoing criminal activity. The video
IRS of approximately $6,854.22. As part          stream of the perpetrator committing the
of the plea agreement, FAI agreed to pay a       crime can be recorded digitally and used
fine of $8,000 and provide restitution to        for criminal prosecution. The use of
the IRS in the amount of $6,854.22, and a        covert surveillance cameras that enable
$400 special assessment.                         real-time video to be monitored from
                                                 remote locations enhances OI’s
                                                 investigative capacity to identify and
High-Tech Crime Fighting                         arrest thieves.

The use of high-tech crime fighting              OI has also used video technology along
equipment is essential to modern law             with specially programmed computers to
enforcement’s efforts to conduct criminal        catch individuals stealing Government
investigations. OI, through its Technical        computers. These computers are
and Firearms Support Division (TFSD),            programmed to receive a signal from a
places a high priority on making available       remote location and send a response if
and employing high-tech equipment to             they are still in place. If the computer
assist TIGTA special agents in their             does not respond to the signal, OI will be
investigations.                                  alerted to the possible theft. If stolen and
                                                 used to access the Internet from another
An example of one of the technologies            site, the computers have a special program
available to TIGTA special agents through        that automatically notifies OI
TFSD involves the use of video-over-             investigators of the Internet address of
Internet technology. This technology             their new location. This technology has



                                                                                          37
TIGTA Semiannual Report to Congress

     enabled OI to identify criminal suspects,   Individual Pleads Guilty to Theft of
     and recover stolen Government property.     Federal Government Property and
                                                 Embezzlement by Bank Employee
     OI’s high-tech crime-fighting equipment
     also includes advanced tools for forensic   Ursula Nicole Moore was indicted and
     analysis of evidence. TIGTA’s Forensic      arrested in June 2006 for theft of
     Science Laboratory (FSL) was established    Government property and
     in 1981 and provides timely crime           embezzlement by a bank employee.
     laboratory services in direct support of    According to court documents, Moore
     TIGTA investigations and ensures that       was employed by a bank at an IRS
     OI receives responsive and high-quality     lockbox facility that received taxpayer
     crime laboratory services. These services   remittance checks. Between
     include:                                    approximately February 2006 and April
     • handwriting/hand printing analysis;       2006, Moore embezzled several checks
                                                 and a money order made payable to the
     • document identification and analysis;
                                                 IRS, with an approximate value of
     • printing and paper analysis;
                                                 $29,770. In August 2006, Moore pled
     • latent print processing;                  guilty to one count of theft of U.S.
     • fingerprint database searches;            Government property.
     • digital image processing/visual
         information; and
     • expert witness testimony.
                                                   Individual Pleads Guilty to Paying
     Additionally, the FSL provides guidance             Gratuity to IRS Official
     on:
     • proper evidence collection and             In August 2006, Thanh Nguyen
         handling methods;                        was sentenced to pay a fine of
     • forensic science training;                 $2,000 and a special assessment
     • assistance with crime scene                fee of $100. According to a plea
         processing;                              agreement filed in U.S. District
     • informational bulletins related to the     Court, Nguyen pled guilty to a
         forensic sciences; and                   one count Information charging
     • liaison with other forensic science        him with paying a gratuity to an
         laboratories.                            IRS representative. In March
                                                  2005, after he learned that his
     During the reporting period, TFSD            2002 individual income tax return
     successfully employed technologies such      was being reviewed by the IRS,
     as covert video surveillance cameras and     Nguyen paid the IRS
     Global Position System technology in         representative $2,000 in
     support of OI investigations. FSL also       exchange for a “no change”
     provided valuable forensic support to an     letter from the IRS indicating that
     investigation by conducting a latent         the IRS would not seek to impose
     fingerprint examination of documents         any additional taxes or penalties
     associated with a theft. Some examples of    for the period being reviewed.
     cases in which TFSD and FSL assisted OI
     special agents in resolving their
     investigations include:


38
                                       TIGTA Semiannual Report to Congress


Former IRS Employee Pleads Guilty to          where they are asked to update their
Theft of IRS Computers                        personal information. The type of
                                              information that is often requested
According to a plea agreement filed in        includes passwords, Social Security
U.S. District Court, Scottie J. Ware, a       numbers, and bank and credit card
former IRS employee, pled guilty in June      account information. These fraudulent
2006 to one count of theft of a U.S.          Web sites bear no connection to actual
Government laptop computer. Ware was          IRS operations and are specifically
originally charged with the theft of four     designed to trick taxpayers into providing
U.S. Government laptop computers and          their personal and financial information.
one personal digital assistant (PDA) with     Once the taxpayers provide this
a cumulative value of approximately           information, they are further victimized
$9,004. The computers and the PDA were        when their identities are used to perpetrate
in Ware’s possession by virtue of his         other crimes or funds are stolen directly
employment as an Information                  from their bank accounts. TIGTA worked
Technology Specialist with the IRS.           closely with the IRS to create a joint IRS-
                                              TIGTA reporting site and by September
Former IRS Employee Pleads Guilty to          2006, 13,860 complaints had been
Making False Statements to TIGTA              received which identified 145 separate
Special Agent                                 schemes traceable to 28 different
In August 2006, former IRS employee           countries. OI worked aggressively to shut
Joseph Yan pled guilty to making false        down several of the related Web sites to
statements and representations to a           minimize the loss to taxpayers and protect
TIGTA special agent. According to a plea      the reputation of the IRS.
agreement filed in U.S. District Court,
Yan, who was employed by the IRS at the       To alert taxpayers to potential identity
time, made false statements and               theft involved in phishing schemes,
representations to a TIGTA special agent      TIGTA’s Inspector General (IG) recorded
that he had not prepared, signed, or filed    a public service announcement for radio
certain U.S. Individual Income Tax            broadcast that explained the details of this
Returns for several tax years.                type of scam, and informed taxpayers
                                              about what to do if they were to receive a
                                              related e-mail or fall victim to these
                                              schemes. Additionally, the Deputy
Combating “Phishing”                          Inspector General for Investigations
Schemes                                       appeared on MSNBC and NBC to help the
                                              American public understand phishing
OI has been diligent in combating a           schemes and to identify what taxpayers
multitude of recent “phishing” schemes        should do if they become the target of a
designed to emulate IRS operations.           fraudulent e-mail message. TIGTA also
These scams consist of e-mail messages        issued a Computer Security Bulletin on its
sent to taxpayers claiming to be from the     Web site addressing this issue. The
IRS and promising a tax refund once the       media, including major newspapers such
recipients provide personal identity and      as the Washington Post, Washington
financial information. The e-mail directs     Times, New York Daily News, and
the taxpayer to either submit personal        Chicago Tribune, helped to spread the
information directly or visit a Web site


                                                                                       39
TIGTA Semiannual Report to Congress

     message about these schemes and                other Federal, State and local law
     TIGTA’s role in combating them.                enforcement organizations, IRS personnel,
                                                    open source media, and other entities to
                                                    accomplish its mission. OI uses
     Criminal Intelligence Program                  information obtained from these sources
                                                    to evaluate whether there is a basis for
     The Inspector General Act (5 U.S.C.            further inquiry or investigation. OI’s
     app. 3 § 8D(k)(1)(C)), along with              involvement with the Joint Terrorism
     Treasury Order 115-01, charged TIGTA           Task Force (JTTF) is a prime example of
     with “protecting the Internal Revenue          the methods used by OI to exchange
     Service against external attempts to           information in support of the CIP. OI has
     corrupt or threaten employees ...” In          agents assigned to the JTTF on full-time
     response, OI established the Criminal          and part-time bases to enhance the United
     Intelligence Program (CIP), another tool       States’ capability to deter, defeat, and
     used to protect the administration of taxes.   respond vigorously to terrorism. This also
     The overall purpose of the CIP is to           provides OI with a means of effectively
     prevent individuals and groups from            and efficiently obtaining information
     threatening, assaulting, intimidating, or      related to individuals and groups that pose
     otherwise impeding IRS employees in the        a threat to the safety of IRS employees
     performance of their duties, or obstructing    and facilities.
     the administration of the internal revenue
     laws. The CIP focuses on proactively           The CIP is also responsible for developing
     identifying persons or groups that             and disseminating Security Advisories
     advocate activities against IRS employees      that advise TIGTA and IRS management
     or facilities, or against the Federal          officials of any significant activities by
     Government in general. This generally          anti-government individuals or groups
     involves the activities of groups or           that may threaten the safety of IRS
     individuals involved in domestic terrorism     personnel and facilities. CIP Security
     but could also involve trans-national          Advisories also educate OI special agents
     terrorist activities. The CIP also conducts    about officer safety issues. To date,
     counter-terrorism investigations of            TIGTA CIP has issued eight of these
     individuals and associated anti-               Security Advisories in 2006. The
     government groups identified through           information contained in the advisories is
     proactive intelligence-gathering efforts.      generally shared by OI special agents with
     Through the CIP, OI works closely with         other law enforcement entities.




40
                                      TIGTA Semiannual Report to Congress


Cease and Desist Letters                         endorsed by the IRS. The delegation
                                                 included the ability to assess civil
Another valuable tool used by OI resulted        penalties, and issue cease and desist letters
from the Secretary of the Treasury               to violators. Cease and desist letters
delegating to TIGTA the authority to             instruct the addressee to immediately
investigate violations of Title 31 U.S.C.        terminate conduct that violates the statute.
§ 333, Misuse of Treasury Name or
Symbol. Through this newly delegated             During this reporting period, OI issued
authority, TIGTA is able to investigate          four cease and desist letters to individuals
private entities that make false                 and/or businesses, directing them to
representations intimating an affiliation        discontinue their illegal use of IRS or
with the IRS to deceive taxpayers into           Treasury names or symbols on
believing that the entity is actually            advertisements or solicitations.




     Title 31 U.S.C. § 333. Prohibition of misuse of Department of the Treasury
     names, symbols, etc.

     (a) General Rule— No person may use, in connection with, or as a part of,
     any advertisement, solicitation, business activity, or product, whether alone or
     with other words, letters, symbols, or emblems:
         (1) the words “Department of the Treasury,” or the name of any service,
         bureau, office, or other subdivision of the Department of the Treasury,
         (2) the titles “Secretary of the Treasury” or “Treasurer of the United States”
         or the title of any other officer or employee of the Department of the
         Treasury,
         (3) the abbreviations or initials of any entity referred to in paragraph (1),
         (4) the words “United States Savings Bond” or the name of any other
         obligation issued by the Department of the Treasury,
         (5) any symbol or emblem of an entity referred to in paragraph (1)
         (including the design of any envelope or stationery used by such an
         entity), and
         (6) any colorable imitation of any such words, titles, abbreviations, initials,
         symbols, or emblems, in a manner which could reasonably be interpreted
         or construed as conveying the false impression that such advertisement,
         solicitation, business activity, or product is in any manner approved,
         endorsed, sponsored, or authorized by, or associated with, the
         Department of the Treasury or any entity referred to in paragraph (1) or
         any officer or employee thereof.



                                                                                           41
TIGTA Semiannual Report to Congress



     Proactive Investigative                         efforts that identified several IRS
                                                     employees who had provided false
     Initiatives
                                                     information and submitted false
                                                     documentation to local housing
     OI uses proactive investigative
                                                     authorities to obtain Federal housing
     initiatives, known as Local Investigative
                                                     subsidies in the amount of $42,924. As a
     Initiatives (LII) and National
                                                     result of these initial investigations, OI
     Investigative Initiatives (NII), to seek out
                                                     initiated an LII to identify other potential
     and identify potential fraud, waste and
                                                     subjects with the assistance of the U.S.
     abuse.
                                                     Department of Housing and Urban
                                                     Development Office of the Inspector
     Proactive investigative initiatives
                                                     General (HUD OIG). In April 2006,
     examine systemic weaknesses or
                                                     HUD OIG provided data to OI
     potential program vulnerabilities. They
                                                     concerning IRS employees nationwide
     are based on fraud identified during an
                                                     who may have fraudulently received
     investigation or designed to detect
                                                     Federal housing subsidies. This
     violations that may otherwise go
                                                     prompted the initiation of an NII. To
     undetected. An LII or NII may identify
                                                     date, 64 leads have been generated from
     perpetrators, generate investigations, or
                                                     the NII, resulting in the initiation of
     result in referrals to the IRS or other
                                                     31 investigations of IRS employees.
     TIGTA components. Proactive
     investigative initiatives are conducted on
     internal and external targets or issues, and      Former IRS Employee Sentenced for
     generally are predicated on intelligence        Fraudulently Obtaining Federal Housing
     information indicating that an operation                       Benefits
     or procedure is vulnerable to fraud or
     abuse.                                         In June 2006, Waconda Nolan was
                                                    sentenced after pleading guilty to
     The objective of an LII is to probe for        submitting a document containing false
     potential systemic weaknesses, fraud,          information to obtain benefits under the
     abuse, or tax administration vulnerability     Federal Section 8 housing assistance
     within IRS operations, and to identify         program. Nolan, who worked for the IRS at
     individuals who are exploiting IRS             the time, falsely reported to the Atlanta
     programs or procedures. An NII is              Housing Authority that she only worked
     initiated when TIGTA has identified a          24 to 30 hours per week and that her gross
     systemic weakness and/or fraud through         earnings in the preceding 12 months were
                                                    only $14,016. In actuality, Nolan worked
     an LII that has significant national
                                                    more hours than she reported, and her
     implications.
                                                    gross earnings for the 12 month period
                                                    “were materially more than $14,016.”
     In June 2006, OI initiated an NII to
                                                    According to court documents, Nolan was
     investigate IRS employees throughout the
                                                    sentenced in Federal District Court to a
     country who may have fraudulently
                                                    term of five years’ probation, restitution to
     obtained Federal Section 8 housing
                                                    the U.S. Department of Housing and Urban
     assistance benefits. The impetus for the       Development in the amount of $13,260,
     NII came from previous OI investigative        and 40 hours of community service.




42
                                       TIGTA Semiannual Report to Congress


Former IRS Employee Sentenced After             Individual Indicted for Theft of Tax
 Providing Fraudulent Information to                       Remittances
   Obtain Federal Housing Benefits
                                              According to an indictment filed in
In June 2006, Kelly M. Summerour was          U.S. District Court, in August 2006,
sentenced after pleading guilty to            Fred I. Ibia, who formerly worked at
submitting a document containing              an IRS lockbox center, was indicted
false information to obtain benefits          by a Federal grand jury for theft of
under the Federal Section 8 housing           Government property and
assistance program. According to              embezzlement by a bank
court documents, Summerour, who               employee. Ibia was employed by
worked for the IRS at the time, falsely       a subcontractor to one of the
reported to the Decatur/DeKalb                commercial banks utilized by the
Housing Authority located in Georgia          IRS to operate its lockbox centers
that her total household income was           across the U.S. As part of his job
$22,614, when in fact her base salary         duties, Ibia was responsible for
from her employment with the IRS              processing tax remittance checks
was substantially in excess of that           sent by taxpayers to the lockbox
amount. Summerour was sentenced               center where he was employed.
to a term of five years’ probation and        According to court documents,
restitution to the U.S. Department of         Ibia was charged with the theft
Housing and Urban Development in              and embezzlement between
the amount of $9,551.                         February 2005 and September 2005
                                              of 22 taxpayer remittance checks
                                              with a cumulative value of
                                              $543,865.




Outreach
                                              period, TIGTA provided presentations to
Outreach initiatives by OI represent          more than 54,000 IRS employees,
another example of proactive efforts that     external entities including tax
have proven to be very effective in           professional organizations, and briefings
producing results. OI’s outreach              for cognizant entities within the IRS,
initiatives are an integral part of its       such as the Office of Employee
operational strategy. They allow TIGTA        Protection and the Commissioner of
to educate and have contact with large        Internal Revenue.
segments of the IRS workforce and other
external entities regarding the prevention    OI has invested in the education of IRS
of fraud in the tax system. They also         employees by providing integrity and
allow TIGTA to develop relationships          fraud awareness presentations to Revenue
with these groups that assist in the          Officers and Revenue Agents at their
identification of crimes against the IRS      Continuing Professional Education (CPE)
and taxpayers. During the reporting           conferences. During the reporting period,




                                                                                     43
TIGTA Semiannual Report to Congress


     OI provided 79 awareness presentations       providing 32 awareness presentations to
     to 1,643 Revenue Officers and 225            2,894 tax practitioners and preparers at
     integrity and awareness presentations to     professional conferences during the
     10,165 Revenue Agents. OI’s outreach         reporting period. OI also provided input
     efforts also include involvement with        to publications utilized by the tax
     other organizations within the IRS, such     professional community.
     as the Hispanic Internal Revenue
     Employees, Association for the               OI continues to foster its relationship
     Improvement of Minorities, and the           with U.S. Attorneys’ offices (USAOs)
     Asian Pacific Internal Revenue               throughout the nation. OI makes a
     Employees. OI also interacts with other      significant effort to share its expertise
     external entities through job fairs and      and increase awareness among the
     other events involving associations          various USAOs concerning criminal
     possessing multi-agency law enforcement      threats against the integrity of the tax
     memberships.                                 system. These efforts have resulted in
                                                  more cases being accepted for
     OI’s outreach strategy includes an effort    prosecution by the USAOs, especially for
     to partner with the tax preparer and         those crimes involving unauthorized
     practitioner community in preventing         access by IRS employees to confidential
     fraud in the tax system. OI worked           taxpayer information.
     diligently to educate tax professionals by




44
                                         TIGTA Semiannual Report to Congress




                                     Awards and Special
                                          Achievements




                   TIGTA Director of Human Capital, Ken Casey (right), accepts
                         Tele-Vision Award from Eric Dunham of GSA.


TIGTA Recognized for Excellence
in Telework Leadership
At the Telework Exchange Town Hall meeting held on Thursday, June 15, 2006, in
Washington, DC, TIGTA received the 2006 Tele-Vision Award for Excellence in Telework
Leadership. This marks the third time TIGTA has been singled out for its outstanding
achievement in the telework field. Ken Casey, joined by Donna Leach and Ben Trapp,
accepted the award for TIGTA, which was presented by Eric Dunham, Acting Deputy
Associate Administrator for Real Property Management at the General Services
Administration. The Tele-Vision Award recognizes excellence in Government Telework
programs that demonstrate a sound, sustainable approach to telework while supporting agency
goals and objectives and leveraging industry standards.


TIGTA Employee Receives
Future HR Leaders Award
During the reporting period, Donna Leach, Human Resource Specialist, was selected as a
recipient for the Future HR Leaders Award by the Human Capital Magazine. The Human
Capital Magazine recognizes the contribution of human resources professionals who are
making significant contributions within their organizations and to the human resources
profession. Donna was selected for her outstanding contributions to the Telework and



                                                                                          45
TIGTA Semiannual Report to Congress


Hoteling programs. Her efforts contributed to TIGTA’s earned recognition for excellence in
its Telework and Hoteling programs. The award presentation was given at the Society for
Human Resources Management Conference held at the Washington Convention Center.


TIGTA Employees Selected for PCIE Awards
for Outstanding Achievement
The President’s Council on Integrity and Efficiency/Executive Council on Integrity and
Efficiency (PCIE/ECIE), which is comprised of Inspectors General appointed by the President,
annually recognizes those in the Inspector General community who have made outstanding
audit, inspection, investigative, or information technology achievements. Three individuals and
eight teams from TIGTA were selected as recipients of Awards for Excellence. In addition,
three TIGTA employees served on inter-agency teams that were selected as Award for
Excellence recipients.
•    Ms. Doris Cervantes, Senior Auditor, Plantation, FL
•    Mr. Darryl J. Roth, Senior Auditor, St. Louis, MO
•    Mr. William Tran, Senior Auditor, Los Angeles, CA
•    Customer Service Audit Team
•    Excise Files Information Retrieval Systems Audit Team
•    Inspections and Evaluations Team
•    Prisoner Refund Fraud Team
•    Section 527 Filing Compliance Audit Team
•    Tax Practitioner Audit Team
•    Development Environment Virtualization
•    Atlanta Field Division and Technical and Firearms Support Division
•    Philadelphia Earnings Integrity Team (inter-agency)
•    Travel Rebates Investigations Team (inter-agency team that included TIGTA Special Agent
     Lisa Pace)




46
                                         TIGTA Semiannual Report to Congress




                                                Congressional
                                                   Testimony


I    nspector General J. Russell
     George appeared before
     Congress four times during this
semiannual reporting period. The
following are summaries of his
                                                along with other factors, may slow
                                                down the anticipated growth in
                                                electronic filing.


testimony.                                      On April 27, 2006, Mr. George
                                                testified before the Senate
                                                Committee on Appropriations’
On April 6, 2006, Mr. George                    Subcommittee on Transportation,
testified before the House Committee            Treasury, the Judiciary, Housing and
on Ways and Means’ Subcommittee                 Urban Development, and Related
on Oversight regarding the IRS’                 Agencies regarding the IRS’ Fiscal
Fiscal Year 2007 appropriations                 Year 2007 appropriations request.
request. Mr. George noted that the              Mr. George discussed the IRS’
IRS’ planning for the 2006 tax                  taxpayer assistance programs,
season had been unusually difficult             specifically the IRS’ plans to close
due to the tax law changes enacted in           some Taxpayer Assistance Centers
response to Hurricanes Katrina and              and reduce the operating hours of its
Rita. Nevertheless, the IRS had                 toll-free telephone service. Mr.
accurately updated its tax products             George told the subcommittee that
and computer programming to                     TIGTA auditors concluded that the
incorporate these and other changes             IRS did not have sufficient or
for the 2006 filing season.                     reliable data to determine the effects
                                                on taxpayers of the proposed
Mr. George also told the                        closures or cutbacks. In addition,
subcommittee that the IRS has seen              Mr. George said that although the
steady growth in electronic filing of           IRS’ Business Systems
income tax returns and expects that             Modernization Program is
growth to continue. TIGTA found                 attempting to address major
that the increase in electronic filing          challenges, the program remains
during the 2006 filing season appears           behind schedule, over budget, and is
to be the result of a greater number            not delivering all of the promised
of taxpayers paying for online filing           functionalities.
services because of income
restrictions placed on taxpayer use of          Regarding the IRS’ initiative to use
the IRS’ Free File Program. This,               private debt collection agencies to




                                                                                         47
     TIGTA Semiannual Report to Congress

       help collect tax debt, Mr. George       has recommended that the IRS make
       noted that TIGTA is working closely     better use of foreign source income
       with the IRS to address concerns        information. On a final note, Mr.
       about security, the protection of       George addressed IRS staffing
       taxpayers’ rights and privacy, and      levels. He said that the enforcement
       the development of integrity and        staffing level is not much higher
       fraud awareness training for contract   today than the 10-year low it
       employees. While discussing the tax     experienced in 2003.
       gap, Mr. George said that TIGTA’s
       evaluation of the IRS’s estimated tax
       gap found that the IRS does not have    On September 26, 2006, Mr. George
       sufficient information to assess        testified before the Senate
       accurately the overall tax gap or the   Committee on Homeland Security
       voluntary compliance rate.              and Governmental Affairs’
                                               Subcommittee on Federal Financial
                                               Management, Government
       On July 26, 2006, Mr. George            Information, and International
       testified extensively on the tax gap    Security during its hearing on
       before the Senate Finance               uncollected taxes and issues of
       Committee’s Subcommittee on             transparency. Mr. George pointed
       Taxation. He told the subcommittee      out that the three primary sources of
       that the IRS lacks new information      the tax gap are under-reporting, non-
       about employment, corporate, and        payment, and non-filing. Third-party
       other taxpayer segments. Among his      reporting and mandatory withholding
       recommendations for closing the tax     of non-employee compensation
       gap, Mr. George said that third-party   payments could significantly address
       reporting could significantly impact    the under-reporting and non-filing
       the tax gap, noting that the IRS        segments of the gap, he said. In
       estimates that compliance rates are     addition, improvement is needed to
       as high as 96 percent when third-       address inaccurately reported
       party reporting is involved. Mr.        Taxpayer Identification Numbers by
       George noted that under-reporting by    independent contractors.
       individuals with business income
       accounts for over 40 percent, or        Mr. George also noted that
       approximately $130 billion, of the      investments made abroad by U.S.
       annual tax gap. Mr. George said that    residents have nearly tripled in
       IRS compliance efforts are limited      recent years. To address this
       by the lack of available information    compliance challenge, TIGTA has
       on the cost basis of investments,       recommended that the IRS make
       which could be used to verify           better use of foreign-source income
       investment gains or losses.             information received from tax treaty
                                               countries. In summary, Mr. George
       Mr. George told the subcommittee        said that a massive change in
       that to address the tax compliance      voluntary compliance is unlikely to
       challenges presented by those who       be achieved without significant
       make foreign investments, TIGTA         changes to the tax system.



48
                                                       TIGTA Semiannual Report to Congress




                                                                  Audit
                                                    Statistical Reports


                                                          Reports with Questioned Costs

TIGTA issued six audit reports with questioned costs during this semiannual reporting period.1 The
phrase “questioned cost” means a cost that is questioned because of:
•    an alleged violation of a provision of a law, regulation, contract, or other requirement governing
     the expenditure of funds;
•    a finding, at the time of the audit, that such cost is not supported by adequate documentation (an
     unsupported cost); or
•    a finding that expenditure of funds for the intended purpose is unnecessary or unreasonable.
The phrase “disallowed cost” means a questioned cost that management, in a management decision,
has sustained or agreed should not be charged to the Government.


                                                                                Reports with Questioned Costs
                                                                          Questioned Costs    Unsupported Costs
                 Report Category                            Number
                                                                           (in thousands)       (in thousands)
1. Reports with no management decision at
the beginning of the reporting period                           8                $15,619           $3,280
2. Reports issued during the reporting period                   6              $153,110           $82,197
3. Subtotals (Item 1 plus Item    2) 2                          14             $168,729           $85,477
4. Reports for which a management decision
   was made during the reporting period3
     a. Value of disallowed costs                               2                       $10           $1
     b. Value of costs not disallowed                           4                 $3,251           $2,623
5. Reports with no management decision at the
   end of the reporting period (Item 3 minus Item 4)            9              $165,468           $82,853
6. Reports with no management decision
   within six months of issuance                                6                $12,855             $684
1
  See Appendix II for identification of audit reports involved.
2.
  Difference due to rounding
3
  Includes one report in which IRS management disallowed part of the questioned cost.




                                                                                                            49
    TIGTA Semiannual Report to Congress




                                                     Reports with Recommendations That
                                                              Funds Be Put To Better Use



TIGTA issued four reports with recommendations that funds be put to better use during this
semiannual reporting period.1 The phrase “recommendation that funds be put to better use” means a
recommendation that funds could be used more efficiently if management took actions to
implement and complete the recommendation, including:
•       reductions in outlays;
•       deobligations of funds from programs or operations;
•       costs not incurred by implementing recommended improvements related to operations;
•       avoidance of unnecessary expenditures noted in pre-award reviews of contract agreements;
•       preventing erroneous payment of the following refundable credits: Earned Income Tax Credit
        and Child Tax Credit; and
•       any other savings that are specifically identified.
The phrase “management decision” means the evaluation by management of the findings and
recommendations included in an audit report, and the issuance of a final decision concerning its
response to such findings and recommendations, including actions concluded to be necessary.


                                      Reports with Recommendations That Funds Be Put To Better Use
                                                                                          Amount
                                         Report Category                     Number
                                                                                      (in thousands)

1. Reports with no management decision at the beginning of the reporting
period                                                                          0              $0
2. Reports issued during the reporting period                                   4        $105,449
3. Subtotals (Item 1 plus Item 2)                                               4        $105,449
4. Reports for which a management decision was made during the reporting
period2
     a. Value of recommendations to which management agreed
               i. Based on proposed management action                           2        $102,196
              ii. Based on proposed legislative action                          0              $0
        b. Value of recommendations to which management did not agree           2          $3,253
5. Reports with no management decision at end of the
   reporting period (Item 3 minus Item 4)                                       0              $0
6. Reports with no management decision within six months of issuance            0              $0
1
    See Appendix II for identification of audit reports involved.




    50
                                                TIGTA Semiannual Report to Congress




                         Reports with Additional Quantifiable Impact
                                              on Tax Administration

In addition to questioned costs and funds put         category, such as when taxpayers legitimately
to better use, the Office of Audit has                assert that they overpaid their taxes.
identified measures that demonstrate the
value of audit recommendations to tax                 Taxpayer Privacy and Security:
administration and business operations. These         Protection of taxpayer financial and account
issues are of interest to IRS and Treasury            information (privacy). Processes and
executives, Congress, and the taxpaying               programs that provide protection of tax
public, and are expressed in quantifiable             administration, account information, and
terms to provide further insight into the value       organizational assets (security).
and potential impact of the Office of Audit’s
                                                      Inefficient Use of Resources: Value of
products and services. Including this
                                                      efficiencies gained from recommendations to
information also promotes adherence to the
                                                      reduce cost while maintaining or improving
intent and spirit of the Government
                                                      the effectiveness of specific programs;
Performance and Results Act (GPRA).
                                                      resources saved that would be available for
                                                      other IRS programs. Also, the value of
Definitions of these additional measures are:
                                                      internal control weaknesses that resulted in an
Increased Revenue: Assessment or                      unrecoverable expenditure of funds with no
collection of additional taxes.                       tangible or useful benefit in return.

Revenue Protection: Proper denial of                  Reliability of Management
claims for refunds, including                         Information: Ensuring the accuracy,
recommendations that prevent erroneous                validity, relevance, and integrity of data,
refunds or efforts to defraud the tax system.         including the sources of data and the
                                                      applications and processing thereof, used by
Reduction of Burden on Taxpayers:                     the organization to plan, monitor, and report
Decreases by individuals or businesses in the         on its financial and operational activities.
need for, frequency of, or time spent on              This measure will often be expressed as an
contacts, record keeping, preparation, or costs       absolute value (i.e., without regard to
to comply with tax laws, regulations, and IRS         whether a number is positive or negative) of
policies and procedures.                              overstatements or understatements of
                                                      amounts recorded on the organization’s
Taxpayer Rights and Entitlements at                   documents or systems.
Risk: The protection of due process rights
granted to taxpayers by law, regulation, or           Protection of Resources: Safeguarding
IRS policies and procedures. These rights             human and capital assets, used by or in the
most commonly arise when filing tax returns,          custody of the organization, from inadvertent
paying delinquent taxes, and examining the            or malicious injury, theft, destruction, loss,
accuracy of tax liabilities. The acceptance of        misuse, overpayment, or degradation.
claims for and issuance of refunds
(entitlements) are also included in this




                                                                                                  51
TIGTA Semiannual Report to Congress



The number of taxpayer accounts and dollar values shown in the following chart were derived from
analyses of historical data, and are thus considered potential barometers of the impact of audit
recommendations. Actual results will vary depending on the timing and extent of management’s
implementation of the corresponding corrective actions, and the number of accounts or subsequent
business activities impacted from the dates of implementation. Also, a report may have issues that
impact more than one outcome measure category.
      .



                Reports with Additional Quantifiable Impact on Tax Administration
                                                                     Number of
                                                        Number of                         Dollar Value
          Outcome Measure Category                                   Taxpayer
                                                         Reports1                        (in thousands)
                                                                     Accounts

    Increased Revenue                                          6          2,337             $1,084,070

    Revenue Protection                                         3         17,076               $324,005

    Reduction of Burden on Taxpayers                           9       568,981                       $0
    Taxpayer Rights and Entitlements at
    Risk                                                       11      754,203                 $12,733

    Taxpayer Privacy and Security                              0              0                      $0

    Inefficient Use of Resources                               4              0                 $21,733

    Reliability of Management Information                      9       116,117                  $21,252

    Protection of Resources                                    0              0                      $0
1
    See Appendix II for identification of audit reports involved.


    Management did not agree with the outcome measures in the following reports:
    •  Increased Revenue: Reference Number 2006-30-075, 2006-30-132, and 2006-30-168.
    •  Taxpayer Burden: Reference Numbers 2006-40-104 and 2006-40-138.
    •  Taxpayer Rights and Entitlements: Reference Number 2006-40-163.
    •  Inefficient Use of Resources: Reference Number 2006-30-168.
    •  Reliability of Management Information: Reference Numbers 2006-10-086 and 2006-40-169.
    The following reports contained quantifiable impacts in addition to the number of taxpayer accounts and dollar
    value:
    •   Taxpayer Rights and Entitlements: Reference Number 2006-30-094.
    •   Taxpayer Burden: Reference Numbers 2006-40-122 and 2006-40-165.
    •   Reliability of Management Information: Reference Numbers 2006-40-098 and 2006-10-170.




52
                                                       TIGTA Semiannual Report to Congress




                                                         Investigations
                                                    Statistical Reports


                                                               Significant Investigative Achievements
                                                                      April 1, 2006 – September 30, 2006

Complaints/Allegations Received by TIGTA
    Complaints against IRS Employees                                                                             2,111
    Complaints against Non-Employees                                                                             1,992

Total Complaints/Allegations                                                                                    4,103

Status of Complaints/Allegations Received by TIGTA
    Investigations Initiated                                                                                     1,569
    In Process within   TIGTA1                                                                                     239
    Referred to IRS for Action                                                                                     355
    Referred to IRS for Information Only                                                                           760
    Referred to a Non-IRS      Entity2                                                                              12
    Closed with No Referral                                                                                        972
    Closed with All Actions Completed                                                                              196
Total Complaints                                                                                                4,103

Investigations Opened and Closed
    Total Investigations Opened                                                                                  1,669
    Total Investigations Closed                                                                                  1,694

Financial Accomplishments
    Embezzlement/Theft Funds Recovered                                                                    $1,265,769
    Court Ordered Fines, Penalties and Restitution                                                       $34,934,248
    Out-of-Court Settlements                                                                                         0

Total Financial Accomplishments                                                                        $36,200,017
1
  Complaints for which final determination had not been made at the end of the reporting period.
2
  A non-IRS entity includes other law enforcement entities or Federal agencies.
Note: The IRS made 44 referrals to TIGTA that would more appropriately be handled by the IRS, and therefore were returned to
the IRS. These are not included in the total complaints shown above.




                                                                                                                           53
TIGTA Semiannual Report to Congress



                                                                      Status of Closed Criminal Investigations
Criminal Referrals1                                                   Employee          Non-Employee                  Total
        Referred – Accepted for Prosecution                                 39                       60                  99
        Referred – Declined for Prosecution                                417                     324                  741
        Referred – Pending Prosecutorial Decision                           18                       35                  53

Total Criminal Referrals                                                  474                      419                  893

No Referral                                                                406                     468                  874
1
    Criminal referrals include both Federal and State dispositions.



                                                                                              Criminal Dispositions2
                                                                                             Non-
                                                                      Employee                                        Total
                                                                                           Employee
Guilty                                                                     29                      73                   102
Nolo Contendere (no contest)                                                 0                       2                     2
Pre-trial Diversion                                                          5                       0                     5
Deferred      Prosecution3                                                   2                       4                     6
Not Guilty                                                                   1                       0                     1
Dismissed4                                                                   2                       5                     7

Total Criminal Dispositions                                                39                      84                   123
2
  Final criminal dispositions during the reporting period. This data may pertain to investigations referred criminally in prior
reporting periods and do not necessarily relate to the investigations referred criminally in the Status of Closed Criminal
Investigations table above.
3
  Generally in a deferred prosecution, the defendant accepts responsibility for his/her actions, and complies with certain
conditions imposed by the court. Upon the defendant’s completion of the conditions, the court dismisses the case. If the
defendant fails to fully comply, the court reinstates prosecution of the charge.
4
  Court dismissed charges.


                                Administrative Dispositions on Closed TIGTA Investigations5
                                                                                                                      Total
Removed, Terminated or Other                                                                                            284
Suspended/Reduction in Grade                                                                                             89
Oral or Written Reprimand/Admonishment                                                                                  113
Closed – No Action Taken                                                                                                103
Clearance Letter Issued                                                                                                 138
Employee Resigned Prior to Adjudication                                                                                 106
Non-Internal Revenue Service Employee Actions6                                                                          313

Total Administrative Dispositions                                                                                     1,187
5
  Final administrative dispositions during the reporting period. This data may pertain to investigations referred administratively
in prior reporting periods and does not necessarily relate to the investigations closed in the Investigations Opened and Closed
statistics on page 53.
6
  Administrative action taken by the IRS against non-IRS employees.




54
                                                   TIGTA Semiannual Report to Congress




                                                        Appendix I
                                               Statistical Reports
                                                            - Other

                                               Audit Reports with Significant
                                           Unimplemented Corrective Actions
  The Inspector General Act of 1978 requires identification of significant recommendations described
  in previous semiannual reports for which corrective actions have not been completed.1 The
  following list is based on information from the IRS Office of Management Control’s automated
  tracking system maintained by Treasury management officials


                  IRS
              Management                          Projected        Report Title and Recommendation Summary
Reference      Challenge                         Completion         (F = Finding No., R = Recommendation No.,
 Number          Area               Issued          Date                            P = Plan No.)
2001-30-052    Tax Compliance     March 2001                     Program Improvements Are Needed to Encourage Taxpayer
                   Initiatives                                   Compliance in Reporting Foreign Sourced Income

                                                   01/01/07      F-3, R-1, P-1, P-2. Improve systems that process data the IRS
                                                                 receives on foreign sourced income.
2002-30-156    Tax Compliance      September                     The Internal Revenue Service Does Not Penalize Employers
                   Initiatives        2002                       that File Wage and Tax Statements with Inaccurate Social
                                                                 Security Numbers

                                                   01/15/07      F-1, R-1, P-1. Ensure that the IRS initiate, as proposed in their
                                                                 response to our memorandum dated February 1, 2002, a
                                                                 regularly scheduled program for proposing penalties for
                                                                 Forms W-2 with inaccurate name/SSN combinations.
2003-10-054         Using         March 2003                     The Internal Revenue Service Needs to Establish an Effective
              Performance and                                    Process to Accurately Identify, Record, and Report
                  Financial                                      Unemployment Trust Fund Administrative Expenses
               Information for
                Program and                        10/01/07      F-1, R-3, P-1. Ensure that the ability to record and report trust
              Budget Decisions                                   fund administrative expenses, as currently envisioned in the
                                                                 IFS development plans, is properly implemented.




      1
        For TIGTA Audit Reports Number 2004-20-131, 2004-20-155, and 2005-20-024: recommendation is being addressed
      in the IRS Security Material Weakness Plan.




                                                                                                                         55
  TIGTA Semiannual Report to Congress




                  IRS
              Management                           Projected    Report Title and Recommendation Summary
Reference      Challenge                          Completion     (F = Finding No., R = Recommendation No.,
 Number          Area                Issued          Date                        P = Plan No.)
2003-10-094    Erroneous and        March 2003                 Improvements Are Needed in the Monitoring of Criminal
                  Improper                                     Investigation Controls Placed on Taxpayers’ Accounts When
                  Payments                                     Refund Fraud is Suspected

                                                   01/15/07    F-1, R-2, P-1. Ensure that regular reviews of the Questionable
                                                               Refund Program are conducted to assess compliance with
                                                               procedures and that feedback is provided regarding
                                                               program effectiveness. Also, analyses of the FDCs’ control
                                                               listing data should be analyzed to ensure reviews are done
                                                               and accounts are resolved.
2003-40-139   Tax Compliance        June 2003                  Opportunities Exist to Improve the Administration of the
                  Initiatives                                  Earned Income Tax Credit

                                                   10/15/07    F-1, R-2, P-1. Establish a consistent method to measure
                                                               progress toward the EITC Program’s long-term goals.
2003-20-118   Security of the IRS    July 2003                 Security Over Computers Used in Telecommuting Needs to
                                                               Be Strengthened

                                                   01/15/08    F-1, R-6, P-1. Require front-line managers to periodically
                                                               check their employees’ laptop computers to ensure that
                                                               sensitive data are being stored and encrypted properly.
2003-30-162   Tax Compliance        August 2003                The Regulations for Granting Extensions of Time to File are
                  Initiatives                                  Delaying the Receipt of Billions of Tax Dollars and Creating
                                                               Substantial Burden for Compliant Taxpayers

                                                   12/15/06    F-1, R-1, P-1. Revise the tax regulations applicable to
                                                               individual taxpayers.
2003-30-176   Tax Compliance        August 2003                Interest Paid to Large Corporations Could Significantly
                  Initiatives                                  Increase Under a Proposed New Revenue Procedure

                                                   12/15/07    F-1, R-2, P-1. Gather pertinent information concerning the
                                                               affected proposed procedure to reduce the length of
                                                               examinations and interest costs by conducting a pilot
                                                               program to demonstrate the actual benefits that could be
                                                               achieved.
2003-10-212    Human Capital        September                  Information on Employee Training Is Not Adequate to
                                       2003                    Determine Training Cost or Effectiveness

                                                   10/01/07    F-3, R-2, P-2. Ensure that IRS training and financial systems
                                                               can provide information needed for the IRS to assess its own
                                                               training efforts.
2004-20-001      Systems             October                   Risks Are Mounting As the Integrated Financial System
              Modernization of        2003                     Project Team Strives to Meet An Aggressive Implementation
                  the IRS                                      Date

                                                   12/31/10    F-2, R-1, P-1. Ensure that the disaster recovery environment is
                                                               completely built-out and tested.




  56
                                                 TIGTA Semiannual Report to Congress




                  IRS
              Management                          Projected    Report Title and Recommendation Summary
Reference      Challenge                         Completion     (F = Finding No., R = Recommendation No.,
 Number          Area                Issued         Date                        P = Plan No.)
2004-40-013   Providing Quality     November                  Improvements Are Needed in the Screening and Monitoring
              Taxpayer Service        2003                    of E-File Providers to Protect Against Filing Fraud
                 Operations
                                                  01/01/07    F-1, R-2, P-1. Enhance the screening procedures for E-File
                                                              Providers to include sending scanned fingerprints to the FBI
                                                              electronically.
2004-30-038   Tax Compliance         January                  Access to the Toll-Free Telephone System Was Significantly
                  Initiatives          2004                   Improved in 2003, but Additional Enhancements Are Needed

                                                  01/15/07    F-3, R-1, P-1. Develop an activity-based costing system that
                                                              reliably captures and reports both the total cost and the cost-
                                                              per-call of providing services on each toll-free product line.
2004-30-068   Tax Compliance        March 2004                Additional Efforts Are Needed to Improve the Bank Secrecy
                  Initiatives                                 Act Compliance Program

                                                  01/15/07    F-2, R-1, P-1. Develop standard risk-based case selection
                                                              criteria that would provide minimum requirements and
                                                              parameters for case selection.
                                                  04/15/07    F-2, R-2, P-1. Reinforce the importance of case
                                                              documentation with specific instructions or case models
                                                              and implement a centralized quality review process.
2004-40-098    Erroneous and        May 2004                  Better Use of the National Account Profile During Returns
                  Improper                                    Processing Can Eliminate Erroneous Payments
                  Payments
                                                  12/15/06    F-2, R-1, P-1. Conduct studies on the accuracy of EITC
                                                              claims on tax returns for individuals who have been claimed
                                                              for EITC purposes that are 20 or more years older than the
                                                              primary taxpayer, or are listed as children that are up to
                                                              19 years older than the primary taxpayer.
2004-20-131   Security of the IRS   September                 The Use of Audit Trails to Monitor Key Networks and Systems
                                       2004                   Should Remain Part of the Computer Security Material
                                                              Weakness

                                                  11/01/06    F-2, R-4, P-1. Develop and implement a reasonable
                                                              approach for reviewing audit trails over major applications.
2004-20-155   Security of the IRS   September                 Computer Security Roles and Responsibilities and Training
                                       2004                   Should Remain Part of the Computer Security Material
                                                              Weakness

                                                  10/15/06    F-3, R-3, P-1. Ensure that employees with key security
                                                              responsibilities are adequately trained to perform security
                                                              duties and tasks.
2004-10-182         Using           September                 The Internal Revenue Service Faces Significant Challenges
              Performance and          2004                   to Reduce Underused Office Space Costing $84 Million
                  Financial                                   Annually
               Information for
                Program and                       10/01/06    F-2, R-3, P-1. Consider allocating rent funds to the operating
              Budget Decisions                                divisions to help ensure more efficient use of space and
                                                              more communication between the facility managers and
                                                              the local operating divisions; consider incentives and
                                                              consequences to ensure better cooperation.




                                                                                                                    57
  TIGTA Semiannual Report to Congress




                  IRS
              Management                          Projected       Report Title and Recommendation Summary
Reference      Challenge                         Completion        (F = Finding No., R = Recommendation No.,
 Number          Area                Issued         Date                           P = Plan No.)
2005-40-026   Providing Quality      February                    Processes Used to Ensure the Accuracy of Information for
              Taxpayer Service         2005                      Individual Taxpayers on IRS.GOV Need Improvement
                 Operations
                                                 P-2: 10/01/06   F-1, R-1, P-2, P-4. Develop a process to ensure that only
                                                 P-4: 12/31/10   authorized personnel have access to IRS.gov content.
                                                    P-1, P-2:    F-1, R-2, P-1, P-2. Enhance the IRS’ content management
                                                   12/31/10      software application to provide the ability to identify specific
                                                                 content accessed or revised by individual users.
2005-20-024   Security of the IRS   March 2005                   The Disaster Recovery Program Has Improved, But It Should
                                                                 Be Reported as a Material Weakness Due to Limited
                                                                 Resources and Control Weaknesses

                                                   12/31/10      F-1, R-1, P-1, P-5. Report a disaster recovery program
                                                                 material weakness to the Department of the Treasury as part
                                                                 of the IRS’ Federal Managers’ Financial Integrity Act of 1982
                                                                 annual evaluation of controls and include any new or
                                                                 currently underway activities in the corrective action plan.
2005-30-048   Tax Compliance        March 2005                   Stronger Sanctions Are Needed to Encourage Timely Filing of
                  Initiatives                                    Pass Through Returns and Ensure Fairness in the Tax System

                                                   02/15/07      F-1, R-3, P-1. Develop a legislative proposal to be submitted
                                                                 to the Department of the Treasury that would amend I.R.C.
                                                                 § 6698 to increase the penalty for late-filed partnership
                                                                 returns from $50 per partner per month to $200 per partner
                                                                 per month.
                                                   02/15/07      F-1, R-4, P-1. Develop a legislative proposal to be submitted
                                                                 to the Department of the Treasury that would amend I.R.C.
                                                                 § 6698 to remove the five-month limitation on the number of
                                                                 months of delinquency that the late-filing penalty is assessed
                                                                 on partnership returns.
                                                   02/15/07      F-1, R-5, P-1. Develop a legislative proposal to be submitted
                                                                 to the Department of the Treasury that would amend I.R.C.
                                                                 § 6698 to make all requirements of the law applicable to S
                                                                 corporations as well as partnerships.
                                                   02/15/07      F-1, R-6, P-1. Develop a legislative proposal to be submitted
                                                                 to the Department of the Treasury that would amend I.R.C.
                                                                 § 6721 to require the assessment of a $200 penalty per
                                                                 Schedule K-1 for the failure to timely provide Schedules K-1
                                                                 to the IRS when a partnership or S corporation return is filed
                                                                 late.
                                                   02/15/07      F-1, R-7, P-1. Develop a legislative proposal to be submitted
                                                                 to the Department of the Treasury that would amend I.R.C.
                                                                 § 6722 to require the assessment of a $200 penalty per
                                                                 Schedule K-1 for the failure to timely provide Schedules K-1
                                                                 to payees when a partnership or S corporation return is filed
                                                                 more than seven days beyond the return due date.
                                                   02/15/07      F-1, R-8, P-1. Conduct a study to determine whether fixed-
                                                                 dollar penalties set at a $200 level in I.R.C. § 6698, 6721, and
                                                                 6722 will be effective in ensuring future compliance or
                                                                 whether other penalty types and/or higher amounts would
                                                                 be more effective.




  58
                                                  TIGTA Semiannual Report to Congress




                  IRS
              Management                           Projected     Report Title and Recommendation Summary
Reference      Challenge                          Completion      (F = Finding No., R = Recommendation No.,
 Number          Area                Issued          Date                         P = Plan No.)
2005-10-070    Human Capital        March 2005                 The Human Resources Investment Fund is Not a Cost-
                                                               Effective Method of Providing Tuition Assistance

                                                   01/15/07    F-2, R-1, P-1. Consider eliminating the HRIF Program and
                                                               providing tuition assistance through alternative means such
                                                               as the Individual Development Plan process and the Career
                                                               Transition Assistance Program.
2005-10-107    Human Capital         July 2005                 Improved Policies and Guidance Are Needed for the
                                                               Telework Program

                                                   03/15/07    F-1, R-1, P-1. Ensure an IRS-wide Flexiplace Program policy is
                                                               developed and implemented that addresses all the
                                                               elements recommended by the OPM.
                                                   03/15/07    F-2, R-1, P-1. Implement guidelines to assist managers in
                                                               evaluating employees’ abilities to participate in the
                                                               Flexiplace Program without a loss in productivity.
                                                   03/15/07    F-2, R-2, P-1. Ensure that Flexiplace Program training is
                                                               provided as needed to help address productivity concerns.
                                                   03/15/07    F-2, R-3, P-1. Assess the logistical support and equipment
                                                               needs of Flexiplace Program participants to help ensure
                                                               there is no loss in productivity.

2005-20-108   Security of the IRS    July 2005                 More Management Attention Is Needed to Protect Critical
                                                               Assets

                                                   11/30/06    F-1, R-2, P-1. Coordinate with all business units at least
                                                               annually to confirm that the IRS’ list of critical assets is
                                                               accurate and complete.
2005-40-110   Providing Quality      July 2005                 The Effectiveness of the Taxpayer Assistance Center
              Taxpayer Service                                 Program Cannot Be Measured
                 Operations
                                                   10/15/07    F-1, R-1, P-1. Enhance the management information system
                                                               to capture the number of taxpayers served, the number
                                                               and types of services provided, and the related resources.
                                                   10/15/06    F-1, R-2, P-1. Develop a Service Delivery Plan for the short-
                                                               term and long-term direction of the TAC Program based on
                                                               business cases and customer input.
                                                   10/15/06    F-1, R-3, P-1. Develop a process that includes routine
                                                               assessments of TAC operations to ensure that the TACs are
                                                               optimally located and the services provided at the TACs are
                                                               the most effective and cost efficient.

2005-30-126   Tax Compliance        August 2005                Additional Work Is Needed to Determine the Extent of
                  Initiatives                                  Employment Tax Underreporting

                                                   10/15/06    F-1, R-1, P-1. Develop methodologies designed to evaluate
                                                               the extent of underreporting by employers.




                                                                                                                       59
  TIGTA Semiannual Report to Congress




                  IRS
              Management                        Projected       Report Title and Recommendation Summary
Reference      Challenge                       Completion        (F = Finding No., R = Recommendation No.,
 Number          Area               Issued        Date                           P = Plan No.)
2005-10-129   Providing Quality    September                   Progress Has Been Made, but Further Improvements Are
              Taxpayer Service        2005                     Needed in the Administration of the Low-Income Taxpayer
                 Operations                                    Clinic Grant Program

                                                 05/15/07      F-1, R-1, P-2. Establish goals and performance measures for
                                                               the LITC program to assist the Congress and IRS in evaluating
                                                               the success of the program.
                                                 03/15/07      F-3, R-2, P-1. Develop a method to obtain information
                                                               necessary to verify clinics are following all LITC program
                                                               requirements.
                                                 01/15/07      F-4, R-1, P-4. Establish procedures to check for tax
                                                               compliance before awarding LITC program grants, and
                                                               consider periodic tax compliance checks during the grant
                                                               period.
2005-30-140   Tax Compliance       September                   Improved IRS Coordination Is Needed to Resolve Large
                  Initiatives         2005                     Volumes of Fraudulent Schedule C Refund Returns

                                               P-1: 10/15/06   F-1, R-1, P-1, P-2, P-3, P-4. Develop an overall compliance
                                                  P-2, P-3:    strategy for Schedules C with fraudulent refunds, especially
                                                 10/15/07      when large volumes of returns are involved.
                                               P-4: 10/15/06   F-1, R-2, P-1, P-2, P-3, P-4. Identify potential computerized
                                               P-1: 10/15/06   methods incorporating possible math error authority to
                                                  P-2, P-3:    temporarily stop refunds for cases meeting the
                                                 10/15/07      characteristics of those in this scheme or other large
                                               P-4: 10/15/06   Schedule C refund schemes.
2005-10-149    Human Capital       September                   The Internal Revenue Service Does Not Adequately Assess
                                      2005                     the Effectiveness of Its Training

                                                 04/15/07      F-1, R-1, P-1, P-2. Require all business units to follow the
                                                               training assessment and develop requirements, and
                                                               properly document this process.
                                                 10/15/06      F-2, R-1, P-1, P-2. Ensure that all IRS components follow
                                                               established procedures to evaluate training in order for the
                                                               IRS to comply with the training assessment requirement of
                                                               the Federal Workforce Flexibility Act of 2004.
                                                 04/15/07      F-3, R-1, P-1. Use the numerical scores from the Employee
                                                               Satisfaction Survey training question in addition to narrative
                                                               comments.

2005-30-154   Processing Returns   September                   The Clarity of Math Error Notices Has Been Improved, but
                       and            2005                     Further Changes Could Enhance Notice Clarity and Reduce
              Implementing Tax                                 Unnecessary Notices
                Law Changes
                During the Tax                 P-1: 04/15/07   F-1, R-2, P-1. Revise tax statement tables contained on
                 Filing Season                                 notices to include specific amounts from at least some line
                                                               items on which taxpayers made errors on their tax returns.
                                               P-1: 04/15/07   F-1, R-3, P-1, P-2. Revise CP16 to present information in a
                                               P-2: 11/15/06   manner consistent with the other notices sent to individual
                                                               taxpayers including the location of the error explanation
                                                               and tax statement, and the wording of the taxpayers’ rights
                                                               to appeal with the math error adjustment..
                                                 01/15/07      F-1, R-5, P-1. Ensure employees perform research and
                                                               suppress notices from going to taxpayers who paid the
                                                               proper amounts.




  60
                                               TIGTA Semiannual Report to Congress




                  IRS
              Management                        Projected     Report Title and Recommendation Summary
Reference      Challenge                       Completion      (F = Finding No., R = Recommendation No.,
 Number          Area               Issued        Date                         P = Plan No.)
2006-40-005    Erroneous and        November                Enhancements Could Be Made to Minimize Internal
                  Improper            2005                  Revenue Service Employee and Volunteer Return
                  Payments                                  Preparation Program Participant Integrity Issues

                                                11/15/06    F-2, R-1, P-2. Enhance training materials and information
                                                            provided to participants, reminding them that Government
                                                            computers should not be used for personal business and
                                                            that payments should not be accepted for preparing tax
                                                            returns.
2006-30-006      Taxpayer           November                The Internal Revenue Service Needs a Coordinated National
                Compliance            2005                  Strategy to Better Address an Estimated $30 Billion Tax Gap
                 Initiatives                                Due to Non-Filers

                                                07/15/07    F-2, R-2, P-1. Consider a study to devise an effective
                                                            outreach and education strategy.
2006-40-007    Erroneous and        November                Efforts to Prevent Improper Tax Benefits Resulting from
                  Improper            2005                  Multiple Uses of Taxpayer Identification Numbers Can Be
                  Payments                                  Improved

                                                01/15/07    F-1, R-1, P-2. Lead a collaborative effort to identify a
                                                            workable solution to resolve multiple identification number
                                                            use cases in which an identification number is used as a
                                                            primary identification number on one return and a
                                                            secondary identification number on another return.
                                                01/15/07    F-1, R-2, P-1. Evaluate the IRS’ strategy for educating
                                                            taxpayers and tax preparers on the proper use of an
                                                            identification number when couples either separate or
                                                            divorce during the tax year.

2006-40-024   Processing Returns    December                Individual Income Tax Returns Were Timely Processed in
                       and            2005                  2005; However, Implementation of Tax Law Changes Could
              Implementing Tax                              Be Improved
                Law Changes
                During the Tax                  04/15/07    F-3, R-1, P-1. Implement a computer check that would
                 Filing Season                              identify questionable large-dollar entries for review and
                                                            resolution for both paper and electronic individual income
                                                            tax returns.
                                                12/15/06    F-5, R-1, P-1. Revise Form 8863 to combine and include
                                                            applicable information for the tuition and fees deduction
                                                            and Education Credit to ensure compliance and promote
                                                            simplicity and fairness.
2006-20-031   Security of the IRS   February                Secure Configurations Are Initially Established on Employee
                                      2006                  Computers, but Enhancements Could Ensure Security Is
                                                            Strengthened After Implementation

                                                11/01/07    F-1, R-2, P-1. Require system administrators to run the IRS’
                                                            configuration checking program on a sample of
                                                            workstations on a periodic basis to ensure security is
                                                            maintained.
                                                10/01/06    F-1, R-5, P-1. Use software application to identify possible
                                                            unauthorized software installed on employee computers.
                                                01/02/07    F-2, R-2, P-1. Assign monitoring responsibilities for significant
                                                            cost software licenses to ensure purchases are justified and
                                                            needed.




                                                                                                                   61
  TIGTA Semiannual Report to Congress




                  IRS
              Management                        Projected    Report Title and Recommendation Summary
Reference      Challenge                       Completion     (F = Finding No., R = Recommendation No.,
 Number          Area              Issued         Date                        P = Plan No.)
2006-40-061   Providing Quality   March 2006                The Taxpayer Assistance Center Closure Plan Was Based on
              Taxpayer Service                              Inaccurate Data
                 Operations
                                                10/15/06    F-1, R-1, P-1. Ensure that data used in the model or any
                                                            decision-making tool are accurate and reliable and have
                                                            been validated before using them to make decisions
                                                            regarding the TAC Program.
                                                10/15/06    F-1, R-2, P-1. Include in the model or any decision-making
                                                            tool data to identify customer characteristics and capture
                                                            customer input to effectively measure the impact any results
                                                            might have on taxpayer service and compliance.
2006-30-065      Taxpayer         March 2006                The Settlement Initiative for Investors in a Variety of Bond and
                Compliance                                  Option Sales Strategies Was Successful and Surfaced
                 Initiatives                                Possible Next Steps for Curtailing Abusive Tax Shelters

                                                11/15/06    F-1, R-2, P-1. Designate a study group to evaluate the IRS’
                                                            overall performance in resolving the Son of Boss abusive tax
                                                            shelter.
2006-10-066    Erroneous and      March 2006                The Office of Professional Responsibility Can Do More to
                  Improper                                  Effectively Identify and Act Against Incompetent and
                  Payments                                  Disreputable Tax Practitioners

                                                10/15/06    F-1, R-1, P-1, P-2. Work to improve the referral process by
                                                            obtaining timely, relevant conviction information for tax
                                                            crimes and State or Federal convictions involving dishonesty
                                                            and breach of trust in a useful format.
                                                04/15/07    F-1, R-2, P-1. Develop a process to obtain relevant
                                                            information on State disciplinary actions by coordinating
                                                            with State licensing authorities.
                                                09/15/07    F-1, R-3, P-1. Develop a method to identify representatives
                                                            on the Centralized Authorization File that does not require
                                                            representatives to use Social Security numbers on Form 2848.
                                                06/15/07    F-2, R-1, P-1. Implement recommendations from the prior
                                                            audit. This should include employing the case
                                                            management system to provide data on the use of
                                                            program resources and performing an annual workload
                                                            and staffing analysis to help prioritize and allocate resources.




  62
                                    TIGTA Semiannual Report to Congress




                                              Other Statistical Reports
       The Inspector General Act of 1978 requires Inspectors General
                      to address the following issues:

                    Issue                                 Result for TIGTA

Access to Information
                                              As of September 29, 2006, there were
Report unreasonable refusals of information   no instances in which information or
available to the agency that relate to        assistance requested by the Office of
programs and operations for which the         Audit was refused.
Inspector General has responsibilities.
Disputed Audit Recommendations
Provide information on significant            As of September 29, 2006, no reports
management decisions in response to audit     were issued in which significant
recommendations with which the Inspector      recommendations were disputed.
General disagrees.
Revised Management Decisions
Provide a description and explanation of      As of September 29, 2006, no
the reasons for any significant revised       significant management decisions
management decisions made during the          were revised.
reporting period.
Audit Reports Issued in the Prior Reporting
Period With No Management Response
                                              As of September 29, 2006, there were
Provide a summary of each audit report        no prior reports in which
issued before the beginning of the current    management’s response was not
reporting period for which no management      received.
response has been received by the end of
the current reporting period.
Review of Legislation and Regulations
                                              TIGTA’s Office of Chief Counsel
Review existing and proposed legislation      reviewed 177 proposed regulations
and regulations, and make                     and legislative requests during this
recommendations concerning the impact         reporting period.
of such legislation or regulations.




                                                                                 63
TIGTA Semiannual Report to Congress




        No government can exist without
        taxation.   This money must
        necessarily be levied on the people;
        and the grand art consists of levying
        so as not to oppress.


                          ~ Frederick the Great




64
                                           TIGTA Semiannual Report to Congress




                                                          Appendix II
                                                       Audit Products

                                  April 1, 2006 – September 30, 2006


                                               Inspector General Congressional Testimony
Reference
 Number                                    Hearing Title
              April 2006
2006-OT-118   2006 Tax Return Filing Season and the 2007 Budget Proposal for the IRS
2006-OT-082   Hearing on the IRS’ Fiscal Year 2007 Budget
              July 2006
2006-OT-119   A Closer Look at the Size and Sources of the Tax Gap
              September 2006
2006-OT-180   Deconstructing the Tax Code: Uncollected Taxes and Issues of Transparency




                                                                                        Audit Products
Reference
 Number                                     Report Title
              April 2006

2006-10-070   There Was One Administrative Action with Respect to Violations of Fair Tax Collection
              Practices in Calendar Year 2005

2006-50-077   Some Concerns Remain About the Overall Confidence that Can Be Placed in Internal
              Revenue Service Tax Gap Projections

2006-30-064   Management Needs to Continue Monitoring Some Case Selection Issues as the Private Debt
              Collection Program Is Implemented

2006-1C-037   Report on the Audit of Adequacy and Compliance of the Contractor’s Disclosure Statement
              Revision 15, Effective January 1, 2005

2006-1C-041   TIRNO-95-D-00057 and TIRNO-00-D-00009 Incurred Cost Audit for Fiscal Year Ended August 31,
              2002

2006-20-054   Enhancements to Transition Management Guidance Will Enable Efficient and Effective
              Modernization Project Implementation




                                                                                                      65
 TIGTA Semiannual Report to Congress


              The Federal, State, and Local Governments Office Can Improve the Workload Selection
2006-10-073
              Process to Increase Effectiveness

2006-10-078   The Revised Private Debt Collection Request for Quotation Adequately Addressed Prior
              Deficiencies in the Solicitation Methodology
              May 2006

2006-1C-040   TIRNO-95-D-00057 and TIRNO-00-D-00009 Incurred Cost Audit for Fiscal Year Ended August 31,
              2001
2006-20-080   The Enterprise-wide Implementation of Active Directory® Needs Increased Oversight
              Improvements in Mainframe Computer Storage Management Practices and Reporting Are
2006-20-056   Needed to Promote Effective and Efficient Utilization of Disk Resources (Funds Put to Better
              Use: $1.4 million; Inefficient Use of Resources: $626,866)
              Automating the Penalty-Setting Process for Information Returns Related to Foreign Operations
2006-30-075   and Transactions Shows Promise, but More Work Is Needed (Increased Revenue: $301 million)
              Note: monetary benefit projected over a five-year period.

2006-1C-043   Report on Compliance of Cost Accounting Standard 418, Allocation of Direct and Indirect
              Costs

2006-10-074   Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities From Fiscal
              Year 2000 Through Fiscal Year 2005

2006-20-079   The Business Systems Modernization Program Is Receiving Value from Contract Work;
              However, Monitoring Can Be Strengthened (Inefficient Use of Resources: $31,000)
2006-1C-042   Audit of Preaward Survey of Prospective Contractor’s Accounting System

2006-40-088   Tax Products and Computer Programs for Individual Income Tax Returns Were Accurately
              Updated for the 2006 Filing Season
              Abuses in the Tax-Exempt Credit Counseling Industry Are Being Addressed, but Further Actions
2006-10-081   Are Needed to Ensure Overall Industry Compliance (Reliability of Information: 227 inaccurate
              inventory entries)

2006-10-085   Financial Controls Over the Health Coverage Tax Credit Advance Payment Process Need to
              Be Enhanced
              June 2006
              The Exempt Organizations Function Effectively Processed Requests for Tax-Exempt Status From
2006-10-089   Charitable Organizations Supporting Hurricane Relief (Taxpayer Burden: one organization’s
              city corrected in the IRS’ publication)
2006-1C-039   Civil Division Incurred Cost Audit for Fiscal Year 2003 (Questioned Costs: $120,218,040)
2006-30-092   The Informants’ Rewards Program Needs More Centralized Management Oversight

2006-40-095   Fiscal Year 2006 Statutory Audit of Compliance with Legal Guidelines Restricting the Use of
              Records of Tax Enforcement Results

2006-10-084   Financial Management Controls Are Generally Adequate, but Opportunities Exist to Improve
              the Accountability over Depreciable Assets
              Invoice Audit of the Microsoft Consulting Services Contract – TIRNO-03-K-00191 (Reliability of
2006-10-086   Information: $444,430 of charges associated with work done by contractor personnel whose
              resumes were not presented)

2006-30-090   The Puerto Rico Collection Field Function Can Improve Internal Controls in Various Activities
              (Increased Revenue: $558,000 impacting seven taxpayers)

2006-10-087   Voucher Audit of the Infrastructure Shared Services Task Order of Contract TIRNO-99-D-00001
              (Questioned Costs: $8,187)

2006-30-091   The Internal Revenue Service Complied with New Approval Requirements for Jeopardy
              Assessments




 66
                                             TIGTA Semiannual Report to Congress


2006-30-094   Fiscal Year 2006 Statutory Review of Compliance with Lien Due Process Procedures (Taxpayer
              Rights and Entitlements: 23,825 lien notices untimely mailed & proof of mailing not located)

2006-20-076   Focusing Management Efforts on Long-Term Project Needs Will Help Development of the
              Customer Account Data Engine Project
2006-20-102   Annual Assessment of the Business Systems Modernization Program
              July 2006
              Although Improvements Have Been Made, More Can Be Done to Identify Businesses by Their
2006-30-097   Principal Business Activity (Reliability of Information: 111,790 returns with missing Principal
              Business Activity codes)
              Controls Can Be Improved to Ensure Advance Earned Income Credit Reported on Individual
2006-40-103   Income Tax Returns Is Accurate (Taxpayer Rights and Entitlements: 228 taxpayers paid
              $443,589 in taxes not owed)
              Fiscal Year 2006 Statutory Audit of Compliance With Legal Guidelines Prohibiting the Use of
2006-40-098   Illegal Tax Protester and Similar Designations (Taxpayer Rights and Entitlements: 287 taxpayers
              improperly identified; Reliability of Information: 1 Internal Revenue Manual subsection with
              prohibited reference to Illegal Tax Protester Designations)

2006-30-100   The Offer in Compromise Program Is Beneficial but Needs to Be Used More Efficiently in the
              Collection of Taxes

2006-30-099   The Large and Mid-Size Business Division Has Effectively Implemented Its Human Capital
              Initiatives

2006-40-107   Data Used to Report Toll-Free Telephone Quality Are Reliable, but Internal Controls Need to Be
              Documented

2006-20-111   Increased Managerial Attention Is Needed to Ensure Taxpayer Accounts Are Monitored to
              Detect Unauthorized Employee Accesses

2006-30-105   While Examinations of High-Income Taxpayers Have Increased, the Impact on Compliance
              May Be Limited
2006-40-112   Analysis of Individual Income Tax Credits

2006-30-106   Examinations of Partnerships Often Do Not Follow All Procedures Required by the Tax Equity
              and Fiscal Responsibility Act of 1982
              Taxpayers Residing in the Hurricanes Katrina and Rita Disaster Areas Were Accurately
2006-40-109   Identified for Tax Relief (Taxpayer Rights and Entitlements: 1,470 taxpayers whose accounts
              contain incorrect disaster period dates)

2006-20-110   Inappropriate Use Of Email by Employees and System Configuration Management
              Weaknesses Are Creating Security Risks
              August 2006
2006-30-101   Fiscal Year 2006 Statutory Review of Compliance with Legal Guidelines When Issuing Levies
              The Electronic Fraud Detection System Redesign Failure Resulted in Fraudulent Returns and
2006-20-108   Refunds Not Being Identified (Revenue Protection: $318.3 million; Questioned Costs: $459,718;
              Inefficient Use of Resources: $20.5 million)
              Fiscal Year 2006 Statutory Review of Compliance with Legal Guidelines When Conducting
2006-30-113   Seizures of Taxpayers’ Property (Taxpayer Rights and Entitlements: 25 taxpayers for whom the
              IRS did not follow all legal and internal guidelines or that internal guidelines can be improved)

2006-30-120   A Formal Program to Identify Artwork Donations Reported on Tax Returns Is Not Necessary, but
              Examination Procedures Need to Be Strengthened

2006-30-117   Requests for Employer Identification Numbers Were Processed Correctly and Unused
              Numbers May Not Pose As Great a Risk As Anticipated

2006-10-121   Statistical Portrayal of the Indian Tribal Government Office’s Enforcement Activities From Fiscal
              Year 2002 Through Fiscal Year 2005




                                                                                                           67
 TIGTA Semiannual Report to Congress

2006-10-115   The Technical and Cost Risks of Replacing the Electronic Travel System Need to Be Resolved
2006-10-116   Trends in Employee Plans Function Enforcement Activities for Fiscal Years 2000 – 2005
2006-1C-044   Report on Examination of Fiscal Year 2003 Incurred Costs and Indirect Expense Rates
2006-1C-045   Report on Application of Agreed-Upon Procedures
2006-1C-046   Report on Audit of Information Technology System General Internal Controls
2006-1C-047   Report on Audit of Compensation System Internal Controls
2006-1C-051   Audit of Timekeeping Practices for Fiscal Year 2004
              Automated Underreporter Program Compliance Activities Were Properly Suspended for
2006-40-104   Taxpayers Affected by Hurricanes Katrina and Rita, but Notification Could Be Improved
              (Taxpayer Burden: 10,863 taxpayers not notified of Automated Underreported Program
              compliance relief)
              Tax-Exempt and Government Entities Division Customers Receive Adequate Service During
2006-10-126   Most Processing Activities; However, Remittances May Not Be Deposited Timely (Increased
              Revenue: $112,055)
2006-30-114   Filing Characteristics and Examination Results for Partnerships and S Corporations

2006-40-135   Fiscal Year 2006 Statutory Review of Disclosure of Collection Activity with Respect to Joint
              Returns
2006-40-136   Fiscal Year 2006 Statutory Review of Restrictions on Directly Contacting Taxpayers

2006-40-134   Individual Income Tax Return Information Was Successfully Posted to the Latest Release of the
              Customer Account Data Engine

2006-40-122   Customer Service at Taxpayer Assistance Centers Showed Improvement During the 2006 Filing
              Season (Taxpayer Burden: 29 incorrect answers to tax questions)

2006-40-125   Oversight and Accuracy of Tax Returns Continue to Be Problems for the Volunteer Income Tax
              Assistance Program
              Insufficient Controls Resulted in Significant Delays in Processing Tax-Exempt Bond Payments
2006-10-128   and Some Unreliable Payment Posting Dates (Revenue Protection: $4,000; Taxpayer Burden:
              13 accounts incorrectly posted)
              Compliance With Freedom of Information Act Requirements Has Increased (Taxpayer Rights
2006-10-129   and Entitlements: 969 IRS responses to FOIA, Privacy Act and I.R.C. Section 6103 requests that
              improperly withheld information or were not timely)

2006-40-133   Processes to Resolve Undelivered and Expired Refunds Are Generally Effective (Taxpayer
              Burden: 113,225 could receive reissued refunds more quickly)
              Untimely Processing of Taxpayer Carryback Loss Claims Resulted in Significant Interest Costs
2006-40-139   (Funds Put to Better Use: $101.7 million; Taxpayer Burden: 28,370 taxpayers with delayed
              refunds) Note: monetary benefit projected over a five-year period.

2006-10-140   Voucher Audit of the Federally Funded Research and Development Center Contract –
              TIRNO-99-D-00005 (Questioned Costs: $28,449)


              September 2006
2006-1C-050   Report on Audit of Compliance with Cost Accounting Standard 410, Allocation of Business
              Unit General and Administrative Expenses to Final Cost Objectives
2006-1C-141   Audit of Timekeeping Practices for Fiscal Year 2003

2006-10-131   The Indian Tribal Governments Office’s Administration of the Tip Compliance Program for Its
              Customer Base Increased Voluntary Compliance
2006-1C-143   Report on Fiscal Year 2005 Labor Floor Checks
              Resource and Computer Programming Limitations Have Hindered the Progress of the
2006-10-124   Federal, State, and Local Governments Office in Identifying Its Customers (Taxpayer
              Burden: filing requirements incorrectly applied or removed from 34 accounts)




 68
                                             TIGTA Semiannual Report to Congress


2006-10-127   Compliance with Statutory Provisions Regarding the Use of Tax Information in Nontax
              Criminal Investigations Cannot Be Verified
              The Wage and Investment Division Automated Underreporter Telephone Operations Could
2006-40-138   Improve Service to Taxpayers (Taxpayer Burden: increasing the level of Service would
              provide access for 416,475 taxpayers over 5 years)

2006-40-162   Appropriate Actions Were Taken to Maintain Taxpayers’ Level of Service, but Access Is
              Lower Than That in Prior Years
              Additional Enhancements Could Improve Tax Compliance of Employees Who Receive Tips
2006-30-132   (Increased Revenue: $342 million) Note: monetary benefit projected over a five-year
              period.
2006-10-093   Confirmation of Tax Noncompliance Issues Among Low-Income Taxpayer Clinics

2006-30-130   Information Report Referrals Are Properly Evaluated, but Processing Controls Need to Be
              Improved

2006-30-161   Efforts to Identify and Process Potential Joint Committee on Taxation Cases Can Be
              Improved

2006-20-179   Treasury Inspector General for Tax Administration – Federal Information Security
              Management Act Report for Fiscal Year 2006
              The Office of Appeals Should Continue to Strengthen and Reinforce Procedures for
2006-10-123   Collection Due Process Cases (Increased Revenue: 1,113 taxpayers impacted; Taxpayer
              Rights and Entitlements: 10,637 Closed Collection Due Process and Equivalency Hearing
              cases that did not contain required or sufficient documentation)

2006-30-160   Requiring Personal Identification Numbers for Electronically Filed Returns Could Improve Tax
              Administration and Reduce Costs (Funds Put to Better Use: $1.83 million)
              Individual Tax Returns Were Timely Processed in 2006, but Opportunities Exist to Improve
2006-40-164   Verification of Certain Tax Deductions (Revenue Protection: $5.7 million impacting 17,076
              taxpayers; Taxpayer Rights and Entitlements: 735,415 eligible taxpayers that did not benefit
              from the State sales tax deduction)
2006-40-137   Improvements Are Needed to Better Identify and Prevent Erroneous Refunds
              Fiscal Year 2006 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights
2006-40-163   When Requested to Extend the Assessment Statute (Taxpayer Rights and Entitlements: 494
              taxpayer and taxpayer representative case files not adequately documented)
              Taxpayers That Call Local Taxpayer Assistance Center Telephone Numbers Are Unable to
2006-40-165   Schedule Appointments to Resolve Tax Account Issues (Taxpayer Burden: 31 instances in
              which an appointment could not be scheduled)
2006-20-167   Uninstalled Computer Security Patches Continue to Put Computer Systems at Risk
              The Savings Used to Recommend Reducing Toll-Free Telephone Hours of Operation Are Not
2006-40-169   As Significant As Projected (Reliability of Information: $17.5 million in potential savings was
              calculated from outdated data)
2006-10-157   Trends in Exempt Organizations Function Enforcement Activities for Fiscal Years 2001-2005
              Many Taxpayers That Could Benefit From the Income Averaging Provision for Fishermen Are
2006-30-158   Not Using It (Taxpayer Rights and Entitlements: 4,627 taxpayers overpaid their taxes by $12.3
              million by not income averaging)

2006-20-166   The Monitoring of Privacy over Taxpayer Data Is Improving, Although Enhancements Can
              Be Made to Ensure Compliance With Privacy Requirements

2006-1C-048   Audit of Cost Accounting Standard 409, Depreciation of Tangible Capital Assets
              Noncompliance

2006-1C-049   Report on Compliance of Cost Accounting Standard 409, Depreciation of Tangible Capital
              Assets
2006-1C-142   Civil Division Incurred Cost Audit for Fiscal Year 2002 (Questioned Costs: $32,373,751)




                                                                                                          69
 TIGTA Semiannual Report to Congress

2006-1C-144   Report on Audit of the Contractor’s Purchasing System
2006-1C-145   Report on Audit of Direct and Indirect Costs for Contractor’s Fiscal Year 2004 (Company 1)

2006-1C-146   Report on Compliance of Cost Accounting Standard 410, Allocation of Business Unit
              General and Administrative Expenses to Final Cost Objectives

2006-1C-150   Report on Audit of Adequacy of the Contractor’s Fiscal Year 2006 Revised Disclosure
              Statement, Effective October 3, 2005
2006-1C-151   Contractor’s Labor Cost Charging and Allocations
2006-1C-152   Report on Audit of Purchasing System and Related Internal Controls

2006-1C-153   Audit Report on Contractor’s Proposed Corrective Action for Cost Accounting Standard
              409 Noncompliance

2006-30-159   The Schedule K-1 Matching Program Has Been Improved, but More Can Be Done to
              Increase Its Effectiveness

2006-40-172   Accountability over Volunteer Income Tax Assistance Program Computers Continues to Be
              a Problem
              The Tax Exempt Determination System Release 1 Delivered Only a Small Portion of the
2006-10-174   Expected Benefits and Significantly Exceeded Cost Estimates (Reliability of Information: $2.3
              million in cost overrun information not available for management’s use)

2006-10-173   The Redesign of the Learning and Education Activity Involved Unnecessary Delays,
              Additional Costs, and Delayed Savings
              Currently Not-Collectible Decisions on Delinquent Accounts Were Appropriate; However,
2006-30-168   Closing Actions Need to Be Improved (Increased Revenue: $4440.4 million impacting 1,217
              taxpayers; Inefficient Use of Resources: $574,983)

2006-1C-147   Report on Audit of the Contractor’s Fiscal Year 2003 Incurred Cost (Questioned Costs:
              $22,099)
2006-1C-148   Civil Information Technology Segment Disclosure Statement, Revision Number 10

2006-1C-149   Fiscal Year 2006 Civil Information Technology Segment Cost Accounting Standard 414,
              Compliance Audit Cost of Money as an Element of the Cost of Facilities Capital
              Report on the Contractor’s Compliance with Requirements of Office of Management and
2006-1C-154   Budget Circular A-133 and Report on Audit of Incurred Costs for the Period October 1, 2001,
              through December 20, 2002
              Staff Reductions in Support Operations Did Not Result in Significant Increases in Mission
2006-10-175   Critical Positions (Funds Put to Better Use: $453,559; Reliability of Information: $1 million in
              employee buyouts not identified in plan approved by OMB)
              The Office of Professional Responsibility Does Not Always Ensure Enrolled Agents Are
2006-10-170   Qualified, and System Limitations Prevented Identification of Ineligible Representatives
              (Reliability of Information: 4,239 Enrolled Agents in good standing who failed to renew their
              licenses or were not tax compliant)
2006-40-171   Use of the Free File Program Declined After Income Restrictions Were Applied

2006-10-176   Employee Training Data Have Not Improved Enough to Determine Training Cost or
              Effectiveness

2006-20-177   Improvements Are Needed to Ensure the Use of Modernization Applications Is Effectively
              Audited

2006-20-178   A Complete Certification and Accreditation Is Needed to Ensure the Electronic Fraud
              Detection System Meets Federal Government Security Standards




 70
                                              TIGTA Semiannual Report to Congress




                                       Appendix III
                                 TIGTA’s Statutory
                           Reporting Requirements

 TIGTA issued 26 audit reports required by statute dealing with the adequacy and security of IRS
 technology during this reporting period. In FY 2006, TIGTA completed its eighth round of
 statutory reviews that are required annually by the Internal Revenue Service Restructuring and
 Reform Act of 1998 (RRA 98). TIGTA also completed an annual review of the Federal
 Financial Management Improvement Act of 1996 (FFMIA). The following table reflects the
 status of the FY 2006 statutory reviews.



      Reference to            Explanation of the
                                                                  Comments/TIGTA Audit Status
   Statutory Coverage             Provision

Enforcement Statistics      Requires TIGTA to           Reference No. 2006-40-095, June 2006
                            evaluate the IRS’           IRS first-line managers had appropriately not used
Internal Revenue Code       compliance with             records of tax enforcement results or production
(I.R.C.)                    restrictions under          quotas or goals when evaluating employees. First-line
§ 7803(d)(1)(A)(i)          section 1204 of RRA 98      managers also appropriately certified that they had
                            on the use of               not used records of tax enforcement results in a
                            enforcement statistics      prohibited manner. TIGTA believes that the IRS’ efforts
                            to evaluate IRS             to ensure that managers are not using records of tax
                            employees.                  enforcement results or production goals or quotas to
                                                        evaluate employees are generally effective and are
                                                        helping to protect the rights of taxpayers.

Restrictions on Directly    Requires TIGTA to           Reference No. 2006-40-136, August 2006
Contacting Taxpayers        evaluate the IRS’           This is the eighth year that TIGTA could not determine
                            compliance with             whether IRS employees followed proper procedures to
I.R.C.                      restrictions under I.R.C.   stop an interview if the taxpayer requested to consult
§ 7803(d)(1)(A)(ii)         § 7521 on directly          with a representative. Neither TIGTA nor the IRS could
                            contacting taxpayers        readily identify cases in which a taxpayer requested a
                            who have indicated          representative or the IRS contacted the taxpayer
                            they prefer their           directly and bypassed the representative. IRS
                            representatives be          management information systems do not separately
                            contacted.                  record or monitor direct contact requirements, and
                                                        Congress has not explicitly required the IRS to do so.
                                                        TIGTA does not recommend the creation of a
                                                        separate tracking system.




                                                                                                         71
TIGTA Semiannual Report to Congress



        Reference to            Explanation of the
                                                                     Comments/TIGTA Audit Status
     Statutory Coverage             Provision

Filing of a Notice of Lien     Requires TIGTA to            Reference No. 2006-30-094, June 2006
                               evaluate the IRS’           TIGTA’s review of a statistically valid sample of
I.R.C.                         compliance with             150 Notices of Federal Tax Lien (NFTL) identified
§ 7803(d)(1)(A)(iii)           required procedures         7 NFTLs (4.67 percent) for which the IRS correctly
                               under I.R.C.                mailed the lien notices; however, it did not mail the
                               § 6320 upon the filing of   lien notices timely as required by I.R.C. § 6320. In
                               a notice of lien.           addition, for another 2 NFTLs (1.33 percent), TIGTA
                                                           could not determine if the IRS complied with the law
                                                           because the IRS could not provide proof of timely
                                                           mailing. In addition, the IRS did not follow its own
                                                           internal guidelines when issuing lien notices, including
                                                           the guidelines for notifying taxpayer representatives
                                                           and resending lien notices when they are returned as
                                                           undeliverable. In 34 (75.6 percent) of 45 NFTLs for
                                                           which the taxpayer had a representative, the IRS did
                                                           not notify the taxpayer representatives of the filing of
                                                           the lien.

Extensions of the Statute of   Requires TIGTA to            Reference No. 2006-40-163, September2006
Limitations for Assessment     include information         There was not always documentation in the related
of Tax                         regarding extensions of     case files that taxpayers were advised of their rights
                               the statute of              regarding assessment statute extensions. The IRS used
I.R.C.                         limitations for             both prior versions of the consent forms and the newly
§ 7803(d)(1)(C)                assessment of tax           distributed revised consent forms that provide an
                               under I.R.C. § 6501 and     explanation of the taxpayers’ rights to limit or refuse to
I.R.C.                         the provision of notice     extend the assessment statute of limitations. In TIGTA’s
§ 6501(c)(4)(B)                to taxpayers regarding      sample of 201 tax returns, 17 percent of the related
                               the right to refuse or      case files reviewed did not contain sufficient
                               limit the extension to      documentation to support that the taxpayers had
                               particular issues or a      been advised of their rights regarding assessment
                               particular period of        statute extensions. In 13 percent of the case files with
                               time.                       authorizations for third-party representation, the IRS did
                                                           not document that the representatives were
                                                           separately notified of the written communications
                                                           advising taxpayers of their rights.

Levies                         Requires TIGTA to           Reference No. 2006-30-101, August 2006
                               evaluate the IRS’           The IRS has effective controls over the issuance of
I.R.C.                         compliance with             systemically generated and manually prepared levies
§ 7803(d)(1)(A)(iv)            required procedures         in both the Automated Collection System and the
                               under I.R.C.                Integrated Case Processing System to prevent a levy
                               § 6330 regarding levies.    from being generated unless there were at least 30
                                                           days between the date taxpayers received notice of
                                                           their appeal rights and the date of the proposed levy.
                                                           TIGTA’s review of 60 systemically generated levies and
                                                           69 manually prepared levies showed that taxpayers
                                                           received notification of their appeal rights at least 30
                                                           days prior the levy.




72
                                                TIGTA Semiannual Report to Congress



      Reference to               Explanation of the
                                                                   Comments/TIGTA Audit Status
   Statutory Coverage                Provision

Collection Due Process          Requires TIGTA to        Reference No. 2006-10-123, September 2006
                                evaluate the IRS’        The IRS could not locate six percent of the closed
I.R.C.                          compliance with          Appeals Collection Due Process cases and 10
§ 7803(d)(1)(A)(iii) and (iv)   required procedures      percent of closed Equivalent Hearing cases
                                under I.R.C.             sampled. In addition, 81 percent of the Collection
                                §§ 6320 and 6330         Due Process cases and 86 percent of the Equivalent
                                regarding the            Hearing cases received were missing at least one of
                                taxpayers’ rights to     the key documents needed to support and present
                                appeal lien or levy      Appeals' hearing results. Consequently, TIGTA
                                actions.                 could not determine if the IRS complied with legal
                                                         guidelines and required procedures to protect
                                                         taxpayer rights. The IRS also misclassified some
                                                         requests for Collection Due Process and Equivalent
                                                         hearings, causing taxpayers to receive the wrong
                                                         type of hearing. In addition, TIGTA identified errors
                                                         in suspending collection activity during hearings.
                                                         Finally, some cases did not have documentation to
                                                         support hearing officers’ impartiality and decisions.


Seizures                        Requires TIGTA to        Reference No. 2006-30-113, August 2006
                                evaluate the IRS’        The IRS did not always comply with legal provisions
I.R.C.                          compliance with          and internal procedures when conducting seizures. A
§ 7803(d)(1)(A)(iv)             required procedures      review of a random sample of 50 of 515 seizures
                                under I.R.C.             conducted between July 1, 2004, and June 30, 2005,
                                §§ 6330 through 6344     identified 15 instances in 13 of the seizures in which the
                                when conducting          IRS did not fully comply with the I.R.C. While the
                                seizures.                review did not identify any instances where the
                                                         taxpayers were adversely affected, not following legal
                                                         and internal guidelines could result in abuses of
                                                         taxpayers’ rights.

                                                         In addition, TIGTA identified three areas in which
                                                         internal guidelines for conducting seizures can be
                                                         improved to help prevent possible abuses of
                                                         taxpayers’ rights.

Taxpayer Designations –         An evaluation of IRS’    Reference No. 2006-40-098, July 2006
Illegal Tax Protester           compliance with          In general, the IRS is in compliance with the prohibition
Designation and Nonfiler        restrictions under       on using Illegal Tax Protester (ITP) or similar
Designation                     section 3707 of RRA 98   designations. The IRS has not reintroduced past ITP
                                on designation of        codes on the Master File and has not reassigned any
I.R.C.                          taxpayers.               similar ITP designations to formerly coded ITP taxpayer
§ 7803(d)(1)(A)(v)                                       accounts. Although one unique reference remains,
                                                         the IRS has initiated steps to remove ITP references
                                                         from the various formats of the Internal Revenue
                                                         Manual. However, IRS employees continue to use ITP
                                                         or similar designations in isolated instances in case
                                                         narratives.




                                                                                                             73
TIGTA Semiannual Report to Congress



        Reference to              Explanation of the
                                                                        Comments/TIGTA Audit Status
     Statutory Coverage               Provision

Disclosure of Collection        Requires TIGTA to review      Reference No. 2006-40-135, August 2006
Activities With Respect to      and certify whether the       This is the eighth year that TIGTA could not determine
Joint Returns                   IRS is complying with         whether the IRS is complying with the statutory
                                I.R.C.                        requirements for responding to written collection
I.R.C.                          § 6103(e)(8) to disclose      activity information requests from joint filers. Neither
§ 7803(d)(1)(B)                 information to an             TIGTA nor the IRS could readily identify any joint filer
                                individual filing a joint     requests received nationwide. IRS management has
I.R.C.                          return on collection          decided not to develop a new management control
§ 6103(e)(8)                    activity involving the        process to track joint filer requests. IRS management
                                other individual filing the   information systems do not separately record or
                                return.                       monitor joint filer requests, and Congress has not
                                                              explicitly required the IRS to do so. TIGTA does not
                                                              recommend the creation of a separate tracking
                                                              system.


Taxpayer Complaints             Requires TIGTA to             Statistical results on the number of taxpayer
                                include in each of its        complaints received are shown on page 53.
I.R.C.                          Semiannual Reports to
§ 7803(d)(2)(A)                 Congress the number of
                                taxpayer complaints
                                received and the
                                number of employee
                                misconduct and
                                taxpayer abuse
                                allegations received by
                                IRS or TIGTA from
                                taxpayers, IRS
                                employees and other
                                sources.

Administrative or Civil         Requires TIGTA to             Reference No. 2006-10-070, April 2006
Actions With Respect to the     include information           TIGTA’s review of 45 cases closed during the period
Fair Tax Collection Practices   regarding any                 January 1 through December 31, 2005, that were
Act of 1996                     administrative or civil       coded as Fair Tax Collection Practices violations,
                                actions with respect to       and an additional 169 employee misconduct cases
I.R.C.                          violations of the fair debt   that were similar in nature to Fair Tax cases, identified 1
§ 7803(d)(1)(G)                 collection provision of       administrative action with respect to violations of Fair
                                I.R.C. § 6304, including a    Tax Collection Practices. The employee left the IRS in
I.R.C.                          summary of such               lieu of removal. There were no civil actions that
§ 6304                          actions, and any              resulted in the IRS paying monetary settlements to
Section 3466 of RRA 98          resulting judgments or        taxpayers because of a Fair Tax Collection Practices
                                awards granted.               violation.




74
                                             TIGTA Semiannual Report to Congress



      Reference to           Explanation of the
                                                                 Comments/TIGTA Audit Status
   Statutory Coverage            Provision

Denial of Requests for      Requires TIGTA to           Reference No. 2006-10-129, August 2006
Information                 include information         In 6.1 percent of the Freedom of Information Act
                            regarding improper          (FOIA) and Privacy Act of 1974 (PA) cases sampled,
I.R.C.                      denial of requests for      the IRS did not provide complete responses and
§ 7803(d)(1)(F)             information from the IRS,   improperly withheld information from requestors.
                            based on a statistically    This represents a lower percentage of improper
I.R.C.                      valid sample of the total   withholdings than reported in TIGTA’s FY 2005 audit
§ 7803(d)(3)(A)             number of                   report (7.1 percent). In addition, the IRS improperly
                            determinations made by      withheld information from requestors in 2.3 percent
                            the IRS to deny written     of the I.R.C. § 6103 cases sampled where
                            requests to disclose        information was denied or the IRS replied responsive
                            information to taxpayers    records were not available. This represents a slightly
                            on the basis of I.R.C.      lower percentage of improper withholdings than
                            § 6103 or                   the 3.1 percent reported last year. The percentage
                            5 U.S.C. § 552(b)(7).       of untimely responses to FOIA and PA requests also
                                                        decreased to 7.3 percent in this year’s sample, as
                                                        compared with the untimely rates in previous audit
                                                        reports, which ranged from 13.1 to 43.5 percent.

Adequacy and Security of    Requires TIGTA to           Information Technology Reviews:
the Technology of the IRS   evaluate the IRS’           Reference Number 2006-20-001, October 2005
                            adequacy and security       Reference Number 2006-20-002, October 2005
I.R.C.                      of its technology.          Reference Number 2006-20-003, November 2005
§ 7803(d)(1)(D)                                         Reference Number 2006-20-009, December 2005
                                                        Reference Number 2006-20-026, December 2005
                                                        Reference Number 2006-20-051, March 2006
                                                        Reference Number 2006-20-059, March 2006
                                                        Reference Number 2006-20-063, March 2006
                                                        Reference Number 2006-20-054, April 2006
                                                        Reference Number 2006-20-056, May 2006
                                                        Reference Number 2006-20-079, May 2006
                                                        Reference Number 2006-20-076, June 2006
                                                        Reference Number 2006-20-102, June 2006
                                                        Reference Number 2006-20-108, August 2006

                                                        Security Reviews:
                                                        Reference Number 2006-20-071, October 2005
                                                        Reference Number 2006-20-021, December 2005
                                                        Reference Number 2006-20-031, February 2006
                                                        Reference Number 2006-20-068, March 2006
                                                        Reference Number 2006-20-080, May 2006
                                                        Reference Number 2006-20-110, July 2006
                                                        Reference Number 2006-20-111, July 2006
                                                        Reference Number 2006-20-166, September 2006
                                                        Reference Number 2006-20-167, September 2006
                                                        Reference Number 2006-20-177, September 2006
                                                        Reference Number 2006-20-178, September 2006
                                                        Reference Number 2006-20-179, September 2006




                                                                                                        75
TIGTA Semiannual Report to Congress



        Reference to       Explanation of the
                                                               Comments/TIGTA Audit Status
     Statutory Coverage        Provision

Federal Financial         Requires TIGTA to         Reference No. 2006-10-069, March 2006
Management Improvement    evaluate the financial    TIGTA determined that no intermediate target dates
Act of 1996               management systems        were missed on the 38 open remedial actions;
                          to ensure compliance      however, 23 dates were extended. The IRS has
31 U.S.C. § 3512          with Federal              reasonable explanations for these extensions, and
                          requirements, or          properly obtained concurrence from the Office of
                          establishment of a        Management and Budget on corrective actions that
                          remediation plan with     extend beyond three years.
                          resources, remedies,
                          and intermediate target   The timely completion of up to 25 open remedial
                          dates to bring the IRS    actions is in jeopardy due to significant funding
                          into substantial          shortfalls, including resources needed to further
                          compliance.               develop the Custodial Detail Data Base and the
                                                    Integrated Financial System, two key financial
                                                    management systems that address longstanding
                                                    financial management weaknesses.

                                                    These delays and funding shortfalls could further
                                                    hinder the IRS’ ability to timely resolve the issues that
                                                    cause its noncompliance with the FFMIA.




76
                                                    TIGTA Semiannual Report to Congress




                                                Appendix IV
                               S e c t i o n 1203 S t a n d a r d s
In general, the Commissioner of Internal Revenue          •   Violating the Internal Revenue Code of 1986,
shall terminate the employment of any IRS                     Treasury regulations, or policies of the IRS
employee if there is a final administrative or judicial       (including the Internal Revenue Manual) for the
determination that, in the performance of official            purpose of retaliating against, or harassing a
duties, such employee committed any misconduct                taxpayer, taxpayer representative, or other
violations outlined below. Such termination shall be          employee of the IRS;
a removal for cause on charges of misconduct.
                                                          •   Willfully misusing provisions of Section 6103
Misconduct violations include:                                of the Internal Revenue Code of 1986 for the
                                                              purpose of concealing information from a
•   Willfully failing to obtain the required approval         Congressional inquiry;
    signatures on documents authorizing the seizure
    of a taxpayer’s home, personal belongings, or         •   Willfully failing to file any return of tax required
    business assets;                                          under the Internal Revenue Code of 1986 on or
                                                              before the date prescribed therefore (including
•   Providing a false statement under oath with               any extensions), unless such failure is due to
    respect to a material matter involving a taxpayer         reasonable cause and not to willful neglect;
    or taxpayer representative;
                                                          •   Willfully understating Federal tax liability,
•   Violating, with respect to a taxpayer, taxpayer           unless such understatement is due to reasonable
    representative, or other employee of the IRS,             cause and not to willful neglect; and
    any right under the Constitution of the United
    States, or any civil right established under Title    •   Threatening to audit a taxpayer for the purpose
    VI or VII of the Civil Rights Act of 1964; Title          of extracting personal gain or benefit.
    IX of the Education Amendments of 1972; Age
                                                          The Commissioner of Internal Revenue may
    Discrimination in Employment Act of 1967;
                                                          mitigate the penalty of removal for the
    Age Discrimination Act of 1975; Section 501 or
                                                          misconduct violations outlined above. The
    504 of the Rehabilitation Act of 1973; or Title I
                                                          exercise of this authority shall be at the sole
    of the Americans with Disabilities Act of 1990;
                                                          discretion of the Commissioner and may not be
•   Falsifying or destroying documents to                 delegated to any other officer. The
    conceal mistakes made by any employee                 Commissioner, in his/her sole discretion,
    with respect to a matter involving a taxpayer         may establish a procedure that will be used
    or taxpayer representative;                           to determine whether an individual should
•   Committing assault or battery on a taxpayer,          be referred to the Commissioner for
    taxpayer representative, or other employee of         determination. Any mitigation determination
    the IRS, but only if there is a criminal              by the Commissioner in these matters may
    conviction, or a final judgment by a court in         not be appealed in any administrative or
    a civil case, with respect to the assault or          judicial proceeding.
    battery;




                                                                                                              77
TIGTA Semiannual Report to Congress




         The wisdom of man never yet
         contrived a system of taxation
         that would operate with perfect
         equality.


                            ~ Andrew Jackson




78
                                         TIGTA Semiannual Report to Congress




                                     Appendix V
                           Data Tables Provided
                                      by the IRS
The memorandum copied below is the IRS transmittal to TIGTA. The tables that follow the
memorandum contain information as provided by the IRS to TIGTA and consist of IRS employee
misconduct reports from the IRS Automated Labor and Employee Relations Tracking System
(ALERTS). Also, data concerning substantiated I.R.C. § 1203 allegations are included. IRS
management conducted inquiries into the cases reflected in these tables.




                                                                                             79
TIGTA Semiannual Report to Congress




                             Report of Employee Misconduct for the Period
                              April 01, 2006 through September 30, 2006
                                   Summary by Disposition Groups
                                      (Table provided by the IRS)


                                                                        Employee
                                 TIGTA        Administrative              Tax     Background
     Disposition                                                                                                Total
                               Investigations    Cases                   Matter  Investigations
                                                                         Cases
Removal                                      43                  197               32                     7         279
Separation of Probationary
Employees                                      3                 112                                      8         123
Separation of Temporary
Employees                                      2                  37                7                     7              53
Resignation/Retirement                       69                  174               38                    14         295
Suspensions                                  80                  276               82                     8         446
Reprimands                                  109                  496              200                    23         828
Counseling                                                       362              216                    71         649
Alternative Discipline                       20                   96               25                               141
Clearance                                   129                  117                8                               254
Closed Without Action                       193                  289               56                  163          701
Closed Without Action
(Caution Statement)                         101                  121               38                    92         352
Forwarded to TIGTA                                                 7                                                      7
Suspended – Waiting
Supplemental                                   7                                                                          7
Termination for
Abandonment of Position                                            3                                                     3
Case Suspended Pending
Employee Return To Duty                        2                   1                4                                     7
Prosecution Pending for
TIGTA ROI’s                                    6                                                                          6
Total                                       764                2,288              706                  393         4, 151

 Source: Automated Labor and Employee Relations Tracking System (ALERTS)
 This report is being produced in accordance with 26 USC § 7803(d)(2) and § 4(a)2 of Treasury Delegation Order 115-01,
 January 14, 1999 Extract Date: Sunday, October 01, 2006 Report ID = T1R3a




80
                                                             TIGTA Semiannual Report to Congress




                             Report of Employee Misconduct for the Period
                              April 01, 2006 through September 30, 2006
                                          National Summary
                                      (Table provided by the IRS)


                                                                              Cases Closed
                                           Conduct
                        Opening                                                                        Closing
   Case Type                                Cases                                              Non-
                       Inventory                                 Conduct                              Inventory
                                           Received                                Duplicates Conduct
                                                                  Issues
                                                                                               Cases
TIGTA
Investigations
ROI1                             595                   743                (764)                (5)            (0)            569

Administrative
Case2                          1,085                 2,017              (2,288)              (27)             (5)            782

Employee Tax
Compliance Case3                 622                   726                (706)              (28)             (0)            614

Background
Investigations4                  153                   375                (393)                (1)            (0)            134

Total                          2,455                 3,861              (4,151)              (61)             (5)          2,099




Source: Automated Labor and Employee Relations Tracking System (ALERTS)

This report is being produced in accordance with 26 USC § 7803(d)(2) and § 4(a)2 of Treasury Delegation Order 115-01,
January 14, 1999

Extract Date: Sunday, October 01, 2006         Report ID = T1R1




    1
      TIGTA Investigations (ROI) - Any matter involving an employee in which TIGTA conducted an investigation into alleged
    misconduct and referred a Report of Investigation (ROI) to IRS for appropriate action.
    2
      Administrative Case - Any matter involving an employee in which management conducted an inquiry into alleged misconduct.
    3
      Employee Tax Compliance Case - Any conduct matter that is identified by the Employee Tax Compliance program which
    becomes a matter of official interest.
    4
      Background Investigation - Any matter involving an NBIC investigation into an employee’s background that is referred to
    management for appropriate action.




                                                                                                                                 81
  TIGTA Semiannual Report to Congress



                          Summary of Substantiated I.R.C. § 1203 Allegations
                               Recorded in ALERTS for the Period
                             April 01, 2006 through September 30, 2006
                                    (Table provided by the IRS)



                                                   Removed               In
  § 1203                       Resigned/ Probation
                                    1                       Penalty
                      Removals                     On Other           Personnel                                               Total
 Violation                      Retired Separation          Mitigated
                                                   Grounds             Process

Seizure
Without
Approval                            0               0                  0                0                0                0       0
False
Statement
Under Oath                          0               0                  0                0                0                0       0
Constitutional
& Civil Rights
Issues                              0               0                  0                0                0                0       0
Falsifying or
Destroying
Records                             0               1                  0                0                1                1       3
Assault or
Battery                             0               0                  0                0                0                0       0
Retaliate or
Harass                              0               0                  0                0                0                1       1
Misuse of
§6103                               0               0                  0                0                0                0       0
Failure to File
Federal Tax
Return                             13               9                  0                3               33               40      98
Understatement
of Federal Tax
Liability                          21              11                  0                3               34               45     114
Threat to Audit
for Personal
Gain                                0               0                  0                0                0                0       1
Totals                             34              21                  0                6               68               87     216
Source: Automated Labor and Employee Relations Tracking System (ALERTS) and § 1203 Review
Board records.
Extract Date: Sunday, October 01, 2006




    1
        The cases reported as “Removals” and “Penalty Mitigated” do not reflect the results of any third-party appeal.




 82
